<html>
<title> - EXAMINING CONFERENCE AND TRAVEL SPENDING ACROSS THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 113-431]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-431

 
               EXAMINING CONFERENCE AND TRAVEL SPENDING 
                ACROSS THE FEDERAL GOVERNMENT
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            JANUARY 14, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
88-270                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                   Jonathan M. Kraden, Senior Counsel
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
                  Patrick J. Bailey, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Johnson..............................................    16
    Senator Heitkamp.............................................    19
    Senator Tester...............................................    22
    Senator Ayotte...............................................    26
Prepared statements:
    Senator Carper...............................................    45

                               WITNESSES
                       Tuesday, January 14, 2014

Hon. Beth F. Cobert, Deputy Director for Management, Office of 
  Management and Budget..........................................     6
Hon. Daniel M. Tangherlini, Administrator, U.S. General Services 
  Administration.................................................     8
Hon. Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice........................................................    31
Hon. Brian D. Miller, Inspector General, U.S. General Services 
  Administration.................................................    32
Hon. J. Russell George, Inspector General for Tax Administration, 
  U.S. Department of the Treasury................................    33

                     Alphabetical List of Witnesses

Cobert, Hon. Beth F.
    Testimony....................................................     6
    Prepared statement...........................................    48
George, Hon. J. Russell:
    Testimony....................................................    33
    Prepared statement...........................................    65
Horowitz, Hon. Michael E.:
    Testimony....................................................    31
    Prepared statement...........................................    57
Miller, Hon. Brian D.:
    Testimony....................................................    32
    Prepared statement...........................................    62
Tangherlini, Hon. Daniel M.
    Testimony....................................................     8
    Prepared statement...........................................    52

                                APPENDIX

Additional statements for the Record from:
    Senator Reid.................................................    72
    3RNet........................................................    74
    The American Association for the Advancement of Science......    75
    American Association for Dental Research.....................    78
    The American Association of Immunologists....................    80
    American College of Healthcare Executives....................    84
    American Composites Manufactures Association.................    86
    American College of Rheumatoloty.............................    87
    American Chemical Society....................................    89
    American Society of Agronomy, Crop Science Society of 
      America, and Soil Science Society of America...............    91
    The Associated General Contractors of America................    93
    American Hotel and Lodging Association.......................    98
    Affordable Housing Management Association of Iowa and 
      Nebraska...................................................   102
    American Institute of Aeronautics and Astronautics...........   103
    American Institute of Certified Public Accountants...........   108
    The American Physiological Society...........................   113
    The American Horticulture Industry Association...............   115
    Association for Molecular Pathology..........................   117
    American Physical Society....................................   119
    The American Society of Association Executives...............   121
    American Society of Human Genetics...........................   128
    American Society of Heating, Refrigerating and Air 
      Conditioning Engineers.....................................   129
    The American Society of Microbiology.........................   131
    American Society for Nutrition...............................   134
    Association of the United States Army........................   135
    American Veterinary Medical Association......................   140
    Consumer Healthcare Products Association.....................   142
    Consulting Management Innovators.............................   145
    Case Management Society of America...........................   147
    Entomological Society of America.............................   149
    Ecological Society of America................................   151
    Federation Of American Societies for Experimental Biology....   153
    Genetics Society of America..................................   155
    The Geological Society of America............................   158
    Government Managers Coalition................................   160
    Human Factors and Ergonomics Society.........................   163
    Healthcare Information and Management Systems Society........   165
    International Association of Fire Chiefs.....................   167
    Institute of Electrical and Electronics Engineers............   171
    International Franchise Association..........................   174
    Irrigation Association.......................................   176
    Midstates Development Inc....................................   179
    Materials Research Society...................................   181
    The National Association of Government Defined Contribution 
      Administrators.............................................   183
    National Affordable Housing Management Association...........   185
    The National Automatic Merchandising Association.............   187
    National Association of State Credit Union Supervisors and 
      National Association of Insurance Commissioners............   189
    Navy League of the United States.............................   191
    National Groundwater Association.............................   193
    National Health Care Anti-Fraud Association..................   194
    National Laboratory Directors Council Executive Committee....   196
    Office of Management and Budget..............................   199
    Orthopaedic Research Society.................................   205
    Research!America.............................................   206
    Society for the Advancement of Material and Process 
      Engineering................................................   208
    Sample of Conferences chart submitted by Senator Coburn......   209
    Security Industry Association................................   210
    Society for Industrial and Organizational Psychology.........   211
    SPIE The International Society for Optics and Photonics......   213
    U.S. Public Policy Council of the Association for Computing 
      Machinery..................................................   215
    WorldatWork..................................................   216
    University of Delaware Research Office.......................   218



                    EXAMINING CONFERENCE AND TRAVEL

                 SPENDING ACROSS THE FEDERAL GOVERNMENT

                              ----------                              


                       TUESDAY, JANUARY 14, 2014

                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 10:35 
a.m., in room SD-342, Dirksen Senate Office Building, Hon. 
Thomas R. Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Pryor, Tester, Heitkamp, Coburn, 
Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. All right. We are going to start the 
hearing at this time. Thank you. I want to say thanks to our 
guests. Beth Cobert, you look none the worse for wear, nor do 
you, Dan. We are grateful that you are here and happy to hear 
really a little bit of an update on how you are doing in your 
responsibilities. Dan has been at it a little bit longer than 
you, Beth, but we are grateful for your presence today and your 
testimony.
    I want to especially thank Dr. Coburn and his staff for all 
the work they have done in helping to put this hearing together 
and, frankly, a lot of work they have done on these issues.
    Today's hearing is part of our Committee's continuous 
efforts to look into, as Senator Landrieu has just said, every 
nook and cranny of Federal spending and seek ways to improve 
results and save some money.
    I was at a State Chamber of Commerce dinner last night, and 
after the dinner was over, back in Wilmington, one of the 
attendees said essentially these words. He said, ``I do not 
mind you making me pay some extra taxes. I just do not want you 
to waste our money.'' And I agree with that, and I am sure that 
we all agree with that sentiment about not wanting to waste 
their money or our money either.
    But, in particular, we are here today to discuss the 
progress agencies have made in cutting spending on conferences 
and travel, while better ensuring that the dollars being spent 
today and in the future make possible a more effective and 
efficient government and hopefully a better country.
    In this time of deep Federal deficits and challenging 
economic times, the people we work for, the taxpayers, expect 
us to be good stewards of their hard-earned money.
    Unfortunately, in the last several years, several 
Inspectors General (IGs) have documented wasteful and excessive 
spending at government conferences. The Department of Justice 
(DOJ), the General Services Administration (GSA), and the 
Internal Revenue Service (IRS) have all made the news, and not 
in a positive way, for excessive conference and travel 
spending.
    The goal of our hearing today, though, is not just to 
reexamine the well-documented excesses of the past. That has 
already been done in the media and in other committees, 
including this Committee. But, rather, the reason we are 
holding today's hearing, the principal reason, is to get a 
better picture of the current state of agency spending on 
conferences, training, and on travel and to understand if the 
culture that contributed to the problems we saw at Justice, at 
GSA, and the IRS has changed.
    There is good news to report. In May 2012, the Office of 
Management and Budget (OMB) issued guidance that required 
agencies to reduce Federal spending on agency travel and to 
improve accountability on conference spending.
    In addition, the challenging budget climate of the last few 
years has forced agencies to operate with less Federal funding, 
which has, in turn, curtailed spending on travel, on training, 
and conferences, while focusing the dollars that are spent on 
activities and events whose value to agencies, whose value to 
organizations, and to citizens is clear.
    As a result of these events, it is my understanding that in 
fiscal year (FY) 2013 agency conference and travel spending has 
decreased by more than $3 billion as compared to fiscal year 
2010. I think we will all agree that is a significant 
reduction.
    At today's hearing, I want to hear from our witnesses about 
where things currently stand in this important area. 
Specifically, I would like to hear answers to some of the 
following questions, and I will just run through these.
    One question is: How much are agencies currently spending 
on conferences and travel?
    A second question would be: How has the OMB guidance been 
adopted and implemented across our government?
    A third question would be: What changes have the Department 
of Justice, GSA, and IRS made to their internal policies to 
address the problems found in those agencies?
    And, finally, what lessons have been learned and what steps 
have been taken to make Federal agencies better stewards of 
taxpayer dollars with respect to conferences and travel?
    To help us answer these questions, we have two excellent 
panels for our hearing today.
    On our first panel, we have Beth Cobert, the Deputy 
Director for Management at the Office of Management and Budget, 
and Dan Tangherlini, the Administrator at GSA.
    On our second panel, we are pleased to welcome three 
Inspectors General from the Department of Justice, GSA, and 
from the Treasury Department, each of whom issued a report 
uncovering wasteful spending at those government agencies.
    We are fortunate to have two distinguished panels and 
witnesses for our hearing today. We very much look forward to 
your testimony.
    Before wrapping up, I want to briefly touch on one issue 
and that is the importance of conferences and the value derived 
from these types of meetings. I want to be clear about one 
thing, though. There is no reasonable justification for the 
spending that took place at some government conferences in 
recent years. It was wasteful, it was expensive, and just, I 
really think, inexcusable.
    I do like to say, though, as some of you know, that in 
adversity lies opportunity. And it certainly appears to me that 
in light of both these, if you will, scandals and budget cuts, 
some good has come about in the sense that agencies have found 
ways to cut conference and meeting costs through technology, 
through conference calls, webinars, and other means.
    However, we must not forget the value of face-to-face 
meetings amongst agencies and, more importantly, with those who 
work outside of our Federal Government, really for whom in many 
cases we work.
    When properly planned and managed, conferences can serve a 
legitimate and often times necessary purpose of fostering 
collaboration and partnerships between government employees, 
State regulators, academia, and industry. And while it is 
important that agencies make efforts to eliminate any wasteful 
spending on conferences and travel, we must be careful that we 
do not unduly restrict the ability of our agencies to interact 
with outside groups and our citizens.
    This Committee has heard from numerous groups--including 
State regulatory agencies, nonprofits, military associations, 
and scientists--that are very concerned that conference and 
travel limitations could cut off their primary means of 
communication with Federal agencies and affect their ability to 
interact with the government.
    These are important concerns that the Executive Branch and 
Congress must consider when shaping policy, and I look forward 
to discussing them with our witnesses today.
    Finally, I would also note that the Committee has received 
a number of written statements from a wide range of interested 
groups and individuals, including the Majority Leader, that 
address the matters that are being discussed here today, and I 
would ask that all of these statements be included as part of 
the hearing record.\1\ Without objection.
---------------------------------------------------------------------------
    \1\ Additional statements for the Record appear in the Appendix on 
page 74.
---------------------------------------------------------------------------
    Dr. Coburn, thanks very much, and thanks for all the work 
that you have done on this.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you.
    Deputy Director Cobert and Administrator Tangherlini, 
welcome. I believe this is both of your first testimony back 
before the whole Committee. I appreciate you being here. I 
think it is an important opportunity to followup oversight that 
we have done outside of the context of the media scandal on 
government conferences.
    Today we are going to get some real hard facts from the 
witnesses about the realities at their agencies and across 
government. There has been a significant amount of 
embarrassment, not only for the Congress but for the Executive 
Branch, over the last 3 years in terms of the excesses that 
have occurred.
    Just for a little history, the Department of Justice 
conferences jumped from under $50 million in 2008 to over $90 
million in 2010. GSA spent $822,000 to hold a conference in Las 
Vegas that included mind readers, clowns, and videos by GSA 
joking about how much money they waste. IRS spent a staggering 
$4.1 million on their conference in Anaheim that, once again, 
included parody videos and was an unnecessary waste of taxpayer 
dollars.
    But there are many more wasteful conferences that did not 
capture very much attention. The Army was spending more than 
$10 million every single year on a conference in D.C. 
Thankfully, this last year that was put to a halt and cut back 
to $1 million.
    The Department of Veterans Affairs (VA) spent $6.1 million 
on just two conferences, and their employees improperly 
accepted gifts and upgrades from vendors.
    The Department of Education (ED) had a conference just this 
last month that cost almost $1 million. Supposedly, the 
Department cannot fund Head Start because of sequestration, but 
can throw a $1 million party in Las Vegas. I had requested them 
to cancel this. They did not, and we have seen the results of 
that conference.
    Effective oversight by the Inspector General community and 
Congress brought these embarrassments to light, and to the 
Inspectors General, I say thank you. The Executive Branch has 
taken some positive steps to address some of these problems. 
The new guidance from OMB and reviews of internal controls of 
the agencies have reduced the number of conferences. But these 
embarrassing memories will fade away over time as new 
leadership and new employees enter Federal service.
    Whether it is 5 years or 10 years from now, eventually 
government will slip back into old habits, the old way of doing 
things, and history, my fear is, will repeat itself. That is 
why I believe it is so important for Congress to take action 
and enact legislation that will permanently prevent excessive 
conference spending.
    Legislation that I have introduced with Senators Ayotte, 
McCain, and Enzi in July would have prevented every single one 
of the wasteful conferences that I mentioned earlier from 
taking place. Under the Conference Accountability Act of 2013, 
no agency can spend more than $500,000 on any single conference 
or send more than 50 employees to an international conference.
    The bill also requires significant improvements to 
transparency to the taxpayers by requiring agencies to put all 
their conferences, including costs, sponsors, videos, and 
presentations, on their websites.
    I really do not think the IRS employees would have made 
their Star Trek video had they known it would have gone up on 
IRS.gov. I do not think it would have ever happened.
    Hopefully this Committee will take up this bill sometime 
this year. I thank you, Deputy Director Cobert and 
Administrator Tangherlini, for the excellent work you have done 
in this area, but it is time for Congress to do its part as 
well. Thank you.
    Chairman Carper. Thank you. Thank you, Dr. Coburn.
    I will say this: I have said it in this Committee before to 
my colleagues--sometimes you can get a lot done by asking the 
Government Accountability Office (GAO) to do a study. Sometimes 
you can get a lot done by introducing a bill. Sometimes you get 
a lot done by doing a hearing. And a lot of good has been done 
in this area. Is there more that can be done? Sure, there is. 
But I just would remind us not to overlook that some progress 
is being made, and there is more that can be made, and 
hopefully we will find out today more about the progress that 
has been made and what more that we might need to do.
    Let me just introduce briefly our witnesses. Our first 
witness--and I think this is your first time back since you 
were confirmed, Ms. Cobert, and we are delighted to see you. I 
am told by others that you have settled into your new--you 
actually did not settle into it nicely. You hit the deck 
running, and we have heard great reports, as we have on Mr. 
Tangherlini. But you were confirmed on October 6 last fall. As 
Deputy Director for Management, Ms. Cobert is responsible for 
oversight and coordination of the Administration's procurement, 
financial management, e-government, performance and personnel 
management, and information and regulatory policies. The Deputy 
Director for Management also serves as the Nation's Federal 
Chief Performance Officer (CPO), and prior to her service in 
government, Ms. Cobert served nearly 30 years at McKinsey & 
Company as director and senior partner.
    We thank you so much for your service and for joining us 
today. We really look forward to your testimony and the chance 
to ask you some questions.
    The next witness is Dan Tangherlini. Dan, nice to see you. 
Mr. Tangherlini is the Administrator for the General Services 
Administration and was sworn in as Administrator on July 5, 
2013, following his 15 months of service as the Acting 
Administrator at GSA. Throughout his career, Mr. Tangherlini 
has been recognized for fiscal and management leadership. 
Before joining GSA, he was confirmed by the Senate in 2009 to 
serve as the Treasury Department's Assistant Secretary for 
Management, Chief Financial Officer (CFO), and Chief 
Performance Officer. And in these roles, Mr. Tangherlini has 
served as the principal policy adviser on the development and 
execution of the budget and performance plans for Treasury and 
the internal management of the Treasury and its bureaus.
    Mr. Tangherlini, we would like to thank you for joining us 
today, as well.
    Before I turn it over to Ms. Cobert, I would say that among 
the things we talk about here on this Committee are how we 
can--to the extent putting on our Governmental Affairs hat on 
this Committee as opposed to just the Homeland Security hat, we 
can be a lot more effective in creating leverage for what we 
are trying to accomplish, and that is to get better results for 
less money. If we can partner with similar responsibilities and 
interests, and that includes OMB, GAO, GSA, includes all the 
IGs, a lot of private groups from around the country who are 
interested in getting better results for less money. So I am 
pleased that we have this new partnership that seems to be 
taking hold, and I think the folks who sent us here for these 
jobs are going to be, I think, encouraged by what they are 
going to hear today, always knowing that we can do better.
    All right. Ms. Cobert, you are on. My clock says 7 minutes. 
If you want to go a little bit beyond that, that is OK, but not 
by much, please. Ms. Cobert, thank you. Welcome.

 TESTIMONY OF THE HON. BETH F. COBERT,\1\ DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Cobert. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee, for the invitation to 
discuss travel and conference spending activity in the Federal 
Government. Today I will mainly focus on the efforts to reshape 
how conferences are conducted in the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement for Ms. Cobert appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    As stewards of taxpayers' dollars, the Federal Government 
must spend money wisely as well as find improvements and 
efficiencies in fiscal oversight. Over the last several years, 
the Administration has reduced conference spending in the 
Federal Government by rethinking how, why, and where 
conferences are conducted as well as increasing our use of 
technology in order to reduce travel costs.
    While the Administration has taken important steps to 
reduce conference spending, it is critical to recognize the 
important role that conferences play in the Federal Government. 
Conferences enable the sharing of knowledge among large groups 
and also bring together dispersed communities. They facilitate 
collaboration and often spark innovation. As an example, the US 
Special Operations Command (USSOCOM) Sovereign Challenge 
Conference provided an opportunity for international 
participants to engage in discussions of threats to national 
security, explore possible solutions and best practices, 
encourage individual and cooperative actions, and build 
relationships with and among international attendees. The face-
to-face interactions afforded by the conference proceedings 
spurred further collaboration that assisted USSOCOM in 
achieving its mission.
    Beyond facilitating collaboration, there are other times 
when physical collocation is both helpful and necessary. This 
is often the case with the scientific community. The primary 
goal for a scientific conference is to bring a community of 
scientists and engineers together and provide opportunities for 
interaction, to exchange emerging ideas and thinking. In 
reviewing research at conferences, the U.S. science and 
engineering community employees and program managers not only 
stay abreast of their Federal research and development (R&D) 
investment portfolios but also see significant cost savings in 
lieu of performing multiple site visits to other researchers' 
laboratories. In these cases, convening Federal employees and 
external stakeholders at a single location sometimes can be the 
most efficient and cost-effective means for carrying out 
government activities.
    It is important to reiterate that while conferences can 
perform useful functions, conference-related spending, as well 
as all administrative spending, must be managed in a 
responsible way. This Administration has taken several steps to 
ensure we are managing our spending effectively. The 
Administration has taken five specific actions which I have 
outlined in my written testimony to reduce costs and strengthen 
controls on conferences and travel spending.
    The Administration's efforts are paying off. In fiscal year 
2013, agencies reduced travel costs by $3 billion compared to 
fiscal year 2010 levels. While we are happy to see costs 
reduced, we will continue our efforts to maintain efficient 
spending. To maintain this lower level of spending, agencies 
are evaluating and rethinking how they conduct conferences that 
support their mission while keeping spending in control.
    For example, in 2013, the Department of the Treasury 
achieved $181 million in travel savings. They did this by 
implementing more restrictive guidance, increasing the use of 
information technology (IT)-enhanced tools, reducing the number 
of employees attending conferences, reducing the number of 
participants attending training events, and canceling multiple 
annual conferences.
    Additionally, the Department of Interior achieved $99 
million in fiscal year 2013 travel savings by implementing a 
comprehensive program to manage conference activities and 
spending. This included close scrutiny of all conferences as 
well as Deputy Secretary review of all conferences over 
$100,000. Interior also continues to increase the use of 
technology in lieu of travel.
    The Department of Defense (DOD) reduced spending on hosting 
conferences with a total cost of more than $100,000 each by a 
total of $69 million in fiscal year 2013. Consistent with OMB 
direction, DOD instituted robust conference oversight 
procedures, combined previously separate conferences, canceled 
many conferences, and increased visibility through the 
implementation of a new, centralized conference reporting tool 
that was integrated with the Defense Travel System.
    The Administration remains committed to responsibly 
managing conference activities and ensuring that conference 
spending across the government supports mission-critical 
activities. It is imperative that the Federal Government 
continue to improve how we conduct business and provide 
services to the American people while increasing public 
transparency. It is also important that our efforts not 
undercut or prevent agencies from achieving their mission. 
While recognizing the importance of conference review and 
reporting requirements, it is also critical that these 
processes do not create burdensome additional costs.
    Moving forward, we are continuing to sharpen our 
understanding of both the value of conferences to mission-
critical departmental activities and the opportunities to 
reduce expenditures. Both are central to good stewardship of 
the taxpayer dollar.
    In my private sector experience, we faced similar issues in 
terms of how to spend dollars in the best way possible on 
conferences and travel. I see the same need within the Federal 
Government. I look forward to using what I have learned in my 
prior position to continue to help expand the progress agencies 
are already making in smartly managing travel and conference 
costs.
    Thank you again for the invitation to testify today. I look 
forward to answering your questions.
    Chairman Carper. Good. Thanks so much.
    Mr. Tangherlini, you are recognized, please.

TESTIMONY OF THE HON. DANIEL M. TANGHERLINI,\1\ ADMINISTRATOR, 
              U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Tangherlini. Good morning, Chairman Carper, Dr. Coburn, 
Members of the Committee, and staff. My name is Dan 
Tangherlini, and I am the Administrator of the General Services 
Administration. I am happy to be here this morning to join 
Deputy Director for Management Cobert, Inspector General Brian 
Miller, and the other IGs present to provide testimony on this 
important subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tangherlini appears in the 
Appendix on page 52.
---------------------------------------------------------------------------
    The mission of GSA is to deliver the best value in real 
estate, acquisition, and technology services to government and 
the American people. GSA's travel policies reflect this 
mission. GSA has instituted internal travel and conference 
policies that reduce costs, provide strong oversight, and 
ensure that travel only occurs when necessary.
    We have put rigorous controls and oversight mechanisms in 
place to ensure that all proposed travel and conference 
expenses are cost-effective, serve legitimate needs, and have 
appropriate levels of review.
    Now travel can only be approved when it is essential to our 
mission and when all other alternatives, including 
videoconferencing, teleconferencing, and webinars, have been 
considered.
    Conferences require submission of a detailed justification, 
a proposed budget, and review and approval from multiple 
divisions. Additionally, GSA requires online training regarding 
conference attendance for GSA employees through our conference 
attendance training module.
    In line with the Administration's policies, GSA has also 
provided greater transparency into conference expenses. All 
approved, agency-sponsored conferences with a cost of over 
$100,000 are posted on a publicly available website that 
includes the budget and a justification for why the conference 
was held. In fiscal year 2013, GSA held no conferences above 
that amount.
    All told, these policies have dramatically reduced costs, 
improved oversight, and made certain that travel and conference 
expenses are fully justified and mission-related. In fiscal 
years 2012 and 2013, GSA saved more than $68 million in avoided 
travel and transportation costs.
    To support these responsible and cost-effective travel 
policies governmentwide, GSA has looked for ways we can assist 
agencies by providing tools to help them better manage their 
travel and conference costs. For example, to help agencies 
prioritize use of federally owned space, GSA has created an 
online tool known as ``Federal Meeting Facilities,'' which 
identifies Federal agencies that have conference and meeting 
space for agency use. The tool allows agencies to search and 
sort through a variety of different spaces controlled by the 
Federal Government, with contact information for the agency 
point of contact to work with to secure the space.
    Another tool is GSA's E-Gov Travel Services 2, which will 
further consolidate online travel booking services, driving 
additional cost savings and efficiencies, while delivering 
improved accountability and reducing waste. This tool will 
adhere to regulations and support policy for conference travel 
spending reporting and other travel-related activities, in 
order to both meet the requirements of OMB and to provide 
greater transparency for customer agencies.
    GSA is also providing data to our partners that will allow 
them to make more informed decisions about where to host 
conferences, when they are determined to be necessary. GSA's 
Conference Planning Tool compares potential destinations by 
major cost drivers, such as contract airfare and per diem 
rates, enabling agencies to make data-backed decisions on where 
conferences should be held. GSA is training administrative 
officers in over 20 Federal agencies on how to identify low-
cost destinations and venues for conferences and meetings.
    Additionally, GSA eliminated what was known as the 
``conference lodging allowance.'' This allowance allowed 
authorized travelers attending a conference to exceed the 
maximum lodging per diem rate by up to 25 percent, if staying 
at the site of the conference.
    Finally, in 2012, GSA formed the Governmentwide Travel 
Advisory Committee to work with all those involved in Federal 
travel to investigate how we can reduce the government's travel 
costs long term. The purpose of this committee is to bring 
together stakeholders from throughout multiple levels of 
government and the travel industry to review existing travel 
policies, processes, and procedures to determine ways agencies 
can achieve their mission-related travel needs in an effective 
and efficient manner at the lowest possible cost. To ensure 
transparency on how recommendations have been formulated, 
committee business is posted publicly, in line with the rules 
for Federal Advisory Committees.
    GSA understands the importance of ensuring that government 
travel is both prudent and cost-effective, and we are committed 
to supporting this priority. We have rigorous internal travel 
policies, provide tools to other agencies to help them make 
more informed travel and conference spending decisions, and we 
are working on broader reforms and programs that would result 
in greater savings long term. We are confident that these 
efforts will result in significant savings for both the Federal 
Government and the American people.
    I appreciate the opportunity to be here today, and I 
welcome any questions you have.
    Chairman Carper. Thank you both very much.
    Let me just start off by asking the same question of both 
of you. What do you think went wrong? How did we go off the 
tracks in past years?
    Ms. Cobert. Let me start, and I will let Dan continue. I 
think the procedures that the Administration has put in place 
in terms of both oversight and public transparency are one of 
the critical elements in terms of the processes that you need 
to have in place and the culture of responsibility that is 
important, having made those changes, and what I think is a 
critical step to ensure that we have an ongoing and permanent 
change to the actions that may have transpired earlier.
    Chairman Carper. Mr. Tangherlini, where did we go wrong?
    Mr. Tangherlini. Well, I can only speak for the General 
Services Administration, and I think actually the Inspector 
General did a fantastic job putting together a report that 
outlined the many different areas where we went wrong in the 
case of the GSA Western Regions Conference.
    I think what we have really been focusing on is 
understanding how we can make sure that our mission of our 
agency is reflected in every action we take, and the 
fundamental mission of this agency is to save money and reduce 
costs. I think focusing on administration-wide efforts around 
transparency, agency-specific efforts around creating a clearer 
culture and organizational accountability and responsibility, a 
stronger sense of reporting, following on a variety of 
Executive Orders and requirements from OMB, and then just a 
smarter engagement of our own people and understanding how we 
can better design our systems to provide transparency and 
checks and balances within the organization. So if there is 
something that seems to be going off track, we catch it long 
before it turns into events like what we saw in 2010.
    Chairman Carper. Ms. Cobert, you had a lot of years at 
McKinsey & Company, and I would be interested in knowing how 
your experience there in the private sector working for three 
decades would inform your perspectives and your ideas of how we 
actually build on the work that has been done in the last year 
or so.
    Ms. Cobert. In my time at McKinsey, one of the areas where 
I did focus was actually taking a hard look at our own spending 
on conferences and travel, particularly as they related to 
internal training.
    Chairman Carper. How could that inform what we----
    Ms. Cobert. So I think we learned a couple things from that 
effort. One was it was really critical to start with the 
question of what was the purpose for which people were being 
pulled together, and if you looked at that, particularly as 
technology has expanded, were there other ways to either convey 
information and get the benefits that in the past would have 
required people to fly, in our case usually very long distances 
at very high cost, taking, frankly, a considerable amount of 
time.
    We learned that there were a number of activities that you 
could really use, in some ways even more effectively, by taking 
advantage of technology. It provided a chance for people, for 
example, to get together over videoconferencing multiple times 
instead of just a single interaction.
    So I think the question is: How can you take a tool like 
that and use videoconferencing even more in the Federal 
Government? It is a skill also that people get better at. The 
more you interact that way, the more comfortable you become, 
the more you can have those interactions.
    So I think there is an important lesson to be learned about 
how to apply technology, to be able to not just replace what 
you are doing but to have to do it differently in a way that 
captures even more benefits, at lower cost.
    But we also learned that there were important times to 
bring people together, and one of the elements, I think, that 
was particularly important was focusing on if you were going to 
bring people together, how were you going to use that time 
well? If someone was going to stand up and deliver a PowerPoint 
presentation, you could probably execute that equally 
effectively and cost less money with something like a webinar. 
But if you wanted to have a real dialogue, a real problem-
solving session, that was harder to do when people were not in 
the same place.
    So what we have changed was not just how frequently we 
brought people together, and we did it much less frequently, 
but to really make sure we were using that time most 
productively when we had people together in the same room.
    Chairman Carper. All right. Those are very helpful 
comments.
    Mr. Tangherlini, do you want to add anything or take 
anything away?
    Mr. Tangherlini. I would just extend those remarks and say 
for us at GSA we really used the attention that was brought to 
this matter and the mistakes that were made to really focus and 
ask big questions about how we were spending money, 
particularly around travel, and ask the question: Are there 
other ways to get that work done? And as a result, we have seen 
a substantial decrease, a more than 80-percent decrease in our 
travel expenditures over the last couple years.
    Chairman Carper. All right. I think you mentioned--and I 
did as well--that if you look at spending for travel, 
conferences, et al., we saw that amount reduced by about $3 
billion last year compared to 2010. I do not know if 2010 was a 
high watermark or not. Do you have any idea what the numbers 
looked like in 2009, 2008, and so forth?
    Ms. Cobert. I do not have the 2009 numbers, but we can get 
those for you.
    Chairman Carper. Any idea, Mr. Tangherlini?
    Mr. Tangherlini. In GSA, 2010 was at the higher end of our 
historical trend, but it was pretty much where things had been 
for quite some time. We went back and looked back 10 or even 15 
years and saw that we had been building toward 2010. The simple 
fact is, I think we really needed to take a good, hard look as 
we did through our top-to-bottom review of the agency, how we 
are aligning ourselves, what were our expectations, how did we 
provide those services, and what should be our assumptions 
going forward.
    Chairman Carper. All right. We can all think of conferences 
that we have attended, whether you have done it as a physician, 
a business person, an auditor, a farmer, or a rancher. I 
remember going to some conferences when I was State treasurer 
and learning a whole lot as a young pup. When I was elected, I 
was about 29. I learned a whole lot about cash management, 
learned a whole lot about investments, learned a lot about 
pensions, deferred compensation. They were enormously helpful.
    I can also remember some conferences I went to back then 
that were not so helpful or so informative, and one of the 
things I most loved about being Governor was being with my 
colleagues from around the country and learning from them and 
having the kind of informal discussions on the record and 
formal sessions, but really off the record and over dinner, 
breakfast, or lunch and at the end of the day.
    I just want to ask--and this is my last question, and then 
I will turn it to Dr. Coburn, but obviously we need to rein in 
excessive and wasteful spending. We have talked about that. But 
how do we make sure that these current restrictions do not 
negatively affect an agency's ability to interact with those 
outside of government, the people we work for and work with?
    Mr. Tangherlini, do you want to take the first shot at 
that? And then we will go to Ms. Cobert and then to Dr. Coburn.
    Mr. Tangherlini. Mr. Chairman, I think that is a very 
reasonable concern, and that is one where we are absolutely 
concerned about and we are working very closely with our agency 
partners and our partners in the private sector to try to 
strike that right balance.
    I think that that makes this a work in progress, and we 
need to continually pay close attention to the training and the 
skills gaps of our employees. We pay close attention to the 
employee viewpoint survey to see if our employees feel that 
they are being supported sufficiently in their training and 
their opportunities to engage in collaboration. That is a very 
real concern.
    I think for us the first step, though, is to really get a 
handle on this spending, really understand why we were making 
the spending, really introduce what Deputy Director Cobert 
talked about; this idea of creating some sense of understanding 
of why we needed to take one approach versus another, and 
create some cost/benefit analysis within the organization.
    Chairman Carper. OK. Ms. Cobert.
    Ms. Cobert. I would echo those comments. I also think as we 
continue to apply a high level, the appropriate level of 
scrutiny to conferences, being as disciplined in measuring the 
benefits of conferences as we do the costs can also help us. 
How can we think about, as you described, the conferences where 
you really, by being there and interacting with individuals, 
get tangible benefits that enable individuals to build their 
skills, to deliver against their mission, to get new ideas for 
government? And how can you then go back and assess which 
conferences did not perhaps deliver that same level of 
benefits? How can you think about when people who do go to the 
conference come back and share what they have learned with 
their colleagues?
    So I think doing those things can also help give us a 
clearer sense of the benefits and, therefore, help us make the 
important tradeoffs about how to wisely spend tax dollars.
    Chairman Carper. Great. Thanks very much. Dr. Coburn.
    Senator Coburn. It is well known the guidance that OMB has 
issued. My question for you, Deputy Director Cobert, is: What 
are the consequences if an agency does not follow your 
guidance?
    Ms. Cobert. For agencies, the requirements and the guidance 
are quite clear in terms of what are agencies required to 
report. I think all the individuals that I have spoken with in 
agencies take that responsibility extremely seriously. They 
understand the importance of these issues. They feel the 
personal responsibility to address them and feel personally 
responsible in giving their own individual approvals to what is 
set out in the guidance.
    Senator Coburn. So you see over here ones that are over 
your limit, and in your guidance is a waiver, if I understand 
it correctly, that they can still have conferences over 
$500,000 at the discretion of the head of the agency. Here is a 
list of conferences that occurred this last year. So basically 
if they decide the guidance does not apply, they can still do 
it. Correct?
    Ms. Cobert. The Secretary needs to approve that guidance. 
The Secretary also needs to post the waiver and the approval 
for that waiver for public scrutiny.
    Senator Coburn. Yes. And where is that posted now?
    Ms. Cobert. Those are posted on the agency websites.
    Senator Coburn. OK. So if we went to the agency's websites, 
we would see the justification for the Secretary's waiver in 
each of these.
    Ms. Cobert. The 2013 ones will be posted at the end of this 
month.
    Senator Coburn. Well, these were 2013, so what I am asking 
is: Are they posted now, or they will be posted?
    Ms. Cobert. The reporting guidelines, as I understand it, 
are for the travel spending at the end of this month to report 
the whole fiscal year.
    Senator Coburn. For 2013.
    Ms. Cobert. I believe that is correct.
    Senator Coburn. All right. You gave some reports on 
reductions in conference spending, but you did not mention the 
Department of Agriculture. Do you have any data on that?
    Ms. Cobert. We do have information on the Department of 
Agriculture (USDA). I do not have it here in front of me but 
can get it for you.
    Senator Coburn. Well, I would appreciate that.
    I would just note for the record that they had 31 
conferences that cost over $10,000 per person. They had 125 
conferences that cost over $3,000 per person. I have been to a 
lot of conferences as a physician, and I would say half the 
time is good and half the time is not. As a matter of fact, the 
lure of the conference to get you there is that there is 
entertainment and there is fun besides working at a conference. 
And I am not critical of that. If you go to a conference as a 
Federal employee, we want you to benefit for your job there, 
but also benefit from where you travel. So this is not a 
criticism of destinations or anything else, but the fact is 
what we did have--and we are going to hear from the IGs, but, 
for example, Mr. Tangherlini actually is in his position today 
because of conference spending. So it is not all one-sided.
    I would like to put OMB Memo M-12-12 into the record,\1\ if 
I might.
---------------------------------------------------------------------------
    \1\ The OMB Memo referenced by Senator Coburn appears in the 
Appendix on page 201.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator Coburn. Do you know many conferences in excess of 
$500,000 that have occurred since that memo was issued?
    Ms. Cobert. There have been a number, but I do not have the 
specifics.
    Senator Coburn. If you can get that for us, if you would.
    Ms. Cobert. Absolutely.
    Senator Coburn. Thank you.
    It is not required under the guidance--and you correct me 
if I am wrong, Deputy Director Cobert--that the agencies do not 
have to contact OMB to make this decision, right?
    Ms. Cobert. In terms of----
    Senator Coburn. If they exceed the level, they do not have 
to contact you.
    Ms. Cobert. The approval guidelines in Memorandum 12-12 
require approval by the Deputy Secretary if your conference is 
greater than $100,000 and by the Secretary if your conference 
is greater than $500,000.
    Senator Coburn. Yes, but they do not have to notify OMB 
they are doing that?
    Ms. Cobert. They do not.
    Senator Coburn. So for us to find that out in the future, 
for you to find that out as the Deputy Director for Management, 
what is the mechanism that you will use? Scour the websites?
    Ms. Cobert. The mechanism that we use is when that 
reporting is available on the websites, that is how we go 
through it. We are expecting them--and we have had 
conversations in our dialogue with them about what we expect, 
the guidelines they have put in place, in particular for how 
they think about managing spending. So the discussions we have 
with them are what are the processes and procedures they have 
put in place in order to come to those provisions.
    Senator Coburn. Do you think there is any need for 
legislation to make what you have put into guidelines law?
    Ms. Cobert. We are very pleased at the progress we have had 
with the guidelines we have put in place. We have seen 
reductions in 2012. We see continued further reductions in 
2013.
    What encourages me also is that we have seen real changes 
in practices at different agencies, across agencies, in terms 
of the level of scrutiny that they are using, in terms of the 
decision criteria, in terms of the availabilities like those 
that Administrator Tangherlini has provided to help them manage 
their spending well.
    So we continue to see progress, and we are very heartened 
by that. We think that the administrative rulings we have put 
in place will drive those changes in behavior over the long 
term and also provide enough flexibility to, in fact, make sure 
that guidelines that are put in place are both neither too 
stringent, but also not too lenient. As the opportunities 
arrive to continue, for example, to use technology in places 
where they are a good substitute for people being a person; 
that is not always the case, but if you can do that more often. 
We also want to have guidelines that continue to evolve and put 
appropriate pressure on people to think carefully about their 
spend. That is why we have approached it this way.
    Senator Coburn. So what happens when we quit concentrating 
on this? Right now we have our thumb on the button. It is in 
the news. It has been. I have been looking at it for 5 years. 
What happens when we quit looking at it?
    Ms. Cobert. I believe the processes that we have put in 
place in terms of transparency around posting conferences 
publicly on the website, the requirements that were in the 
continuing resolution (CR) around ongoing oversight and 
information provided to the IGs will help us maintain the kind 
of focus that has been put on this issue, that is important to 
continue to put on this issue. We support a focus on continuing 
to manage this spending closely.
    Senator Coburn. All right. In 10 years, Mr. Tangherlini, 
with a new Administration, a new GSA Administrator, provided 
you are not still there, is there currently any provision of 
law that would prevent GSA from having another big blowout 
conference costing millions of dollars?
    Mr. Tangherlini. The provisions of law would be related to 
appropriations laws, restrictions you heard in the CR, whether 
they continue, I do not know what will happen 10 years from 
now. But we have had some Executive Order (EO), changes to the 
Federal Travel Regulations (FTR) or the clarification of 
Federal Travel Regulations, all things that would need to 
actively be rescinded, repealed, or changed in order for us to 
go back to the environment in which we were operating in when 
we had the unfortunate events that we had.
    Senator Coburn. In his prepared testimony for the second 
panel in this hearing, Inspector General George states that the 
IRS does not have a system to track and report the actual cost 
of conferences. I understand that when things were changing in 
GSA, one of the things that came to light was you did not have 
a system in place, but you do now.
    Mr. Tangherlini. We did not before simply because the way 
the financial systems were designed, we were tracking travel, 
we were tracking contract expenditures. You put those together, 
and you begin to start funding a conference. We now have a 
system to do that.
    Senator Coburn. So that tool that you have now, is that 
transferable?
    Mr. Tangherlini. Absolutely.
    Senator Coburn. So that is something they could get without 
cost from you all?
    Mr. Tangherlini. There may be some costs associated with 
setup, purchasing licenses. It is a commercially off-the-shelf 
technology that we use.
    Senator Coburn. But it is not a hard ask?
    Mr. Tangherlini. No.
    Senator Coburn. OK. One final question, then I will yield 
back. The Department of Justice Inspector General report this 
year highlighted the travel system method of the Department 
that DOJ pays more than $30 per flight booked to a contractor 
when they use a live travel agent. But they still pay $7 to 
book a flight when they do not use a live travel agent. When I 
book a flight, I do not pay anything. And neither does the rest 
of America when they book it directly. What is up with that? 
Why does a Federal employee because they book a flight have to 
pay 7 bucks if they book it themselves or 30 bucks if they book 
it through a travel agent? And why are we using travel agents 
instead of booking a flight?
    Mr. Tangherlini. Well, there may be specific instances 
where the travel is very complicated. There may be certain 
requirements. I will not get into the specifics of why someone 
might use a travel agent. I can tell you that GSA and in our 
most recent travel system negotiation have been trying to push 
down the cost of travel in general as well as dramatically 
increase the use of technology so it feels more like that 
experience you have when you are traveling on your own, when 
you have your personal travel experience. That way we can 
maximize competition, we can give agencies exposure to 
currently available fares, but still also preserve something 
that we benefit tremendously through our negotiated fares, and 
that is, the ability to, at no cost to the traveler, cancel or 
rearrange flights, which is actually a major source of revenue 
to the airlines right now. So that flexibility saves us a lot 
of money.
    Senator Coburn. But, for example, there is not a Kayak for 
Federal travel?
    Mr. Tangherlini. We are moving toward, in our Enhanced 
Travel System 2 (ETS2), the contracts that we just signed, we 
have just made it through the protest phase with that, and we 
have resolved the issues. We are actually going to be 
dramatically upgrading the technology that Federal agencies 
will use in being able to get online and book travel.
    Senator Coburn. So there will still be a charge, though? If 
I as a Federal employee go and use that, I am still going to 
pay 7 bucks for----
    Mr. Tangherlini. I do not know what the cost is, but 
overall our travel expenses are much less than what is 
available to the general public because we do aggregate this 
spend and that is one of those areas where we really do have a 
very aggressive strategicly sourced relationship with the 
people who provide the services to us.
    Senator Coburn. Thank you.
    Chairman Carper. All right. Thanks so much.
    Next in questioning, I think, in terms of order of arrival 
is Senator Johnson, Senator Tester, Senator Heitkamp. So, 
Senator Johnson, you are on.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    I would kind of like to pick up where Senator Coburn left 
off here. I think it is obvious the reason that we are making 
any progress is because of the sunshine, the fact that these 
were some pretty egregious examples and the public found out 
about it. Also, Deputy Director Cobert, coming from the private 
sector, you understand the value of information, so start going 
down the table--Mr. Tangherlini, you talked about the tools 
that GSA has been developing. Any other agencies using those 
tools?
    Mr. Tangherlini. I am not sure whether other agencies are 
using precisely what we are. I do know agencies have 
dramatically increased the amount of tracking they are doing 
around conferencing, in part to respond to the requirements for 
reporting associated with the various OMB memoranda as well as 
the changes in the Federal Travel Regulations.
    Senator Johnson. So, Ms. Cobert, how can we--if we have 
some good tools in one agency, how can we pretty well force 
other agencies to use those tools that work?
    Ms. Cobert. One of the roles that we play at OMB is to try 
and share these practices and best practices. For example, 
through discussions at the Chief Financial Officers Council 
(CFOC), for example, we have talked about the savings in some 
of these tools. We encourage dialogue between individual 
agencies, that they develop tracking mechanisms and the like. 
Some of the tools that Administrator Tangherlini mentioned 
about, for example, the availability of Federal conference 
space are shared across agencies.
    So for us, one of the key purposes is to sustain this 
dialogue and help work with individual agencies and help 
encourage the bilateral conversations to make that happen.
    Senator Johnson. ``Talk,'' ``encourage.'' What about 
management actually directing people to use something that 
works so we save taxpayer money? Is there any action on, this 
thing works, this is best practice we are seeing in this 
agency, let us use it in the other agencies? Is there action to 
do that?
    Ms. Cobert. In travel and in other commodities, for 
example, that is what we are doing through the Strategic 
Sourcing Council in putting those mechanisms in place, getting 
not just the forcing but also the transparency so people 
understand the benefits they get from moving to these 
mechanisms, and that is the work of that council going forward.
    Senator Johnson. So we are publishing these conferences 
that exceed half a million dollars on individual agency 
websites, correct?
    Ms. Cobert. Yes, greater than $100,000.
    Senator Johnson. Excuse me, $100,000. Is there a better way 
to highlight that? Should we accumulate all that and put that 
out there on an annual report and maybe through the Committee? 
Would that be more effective to--rather than have it kind of--I 
would not say ``hidden,'' but certainly diffuse. How about 
accumulate all that information, publish one report, have the 
Administration highlight it, have Congress highlight it so that 
all the agencies understand that if they are going to spend 
more than $100,000, Americans are going to understand that?
    Ms. Cobert. Sure. When we put in place the Executive Order, 
we concurred that transparency was important. That was a key 
element of the order, and we would welcome the opportunity to 
work with you and others to think about the best way to ensure 
that there is real visibility of that information. And so we 
would be happy to have a dialogue on approaches to do that.
    Senator Johnson. OK. I would suggest that. Certainly in the 
private sector, if I needed to make sure there was greater 
efficiency in a particular department, we did it with their 
budget. I mean, we forced efficiency. Are we doing that within 
the agencies? In other words, a really good way to make sure 
they tighten up their travel and their conference spending is 
not give them as much money.
    Ms. Cobert. The guidance in the Executive Order was a 30-
percent reduction in administrative spend. We have seen 
agencies take that and achieve against that level. We have seen 
spending come down in fiscal year 2012 and fiscal year 2013, 
and so we think they all feel that pressure and are working 
within their budgets to manage that appropriately.
    The needs for travel are different from one agency to the 
next, but we have seen a consistent reduction across agencies 
in their spend on these topics.
    Senator Johnson. It was one of the questions I had because 
I saw the goals of reducing administrative costs by 20 percent, 
then conference spending by 30 percent. And I got some numbers, 
but I did not get details about the starting point and the 
ending point, and the actual percent, the dollar amount--do you 
have that information?
    Ms. Cobert. I can give you the numbers for travel spending, 
and we would be happy to provide you post this hearing more of 
the detail that is available.
    Senator Johnson. Are you, coming from the private sector, 
as frustrated as I am in terms of the lack of good, solid, 
basic financial information to be able to make these decisions 
in order to drive these types of performance improvements?
    Ms. Cobert. Getting the kind of data both on actual cost, 
cost per unit, is something we are continuing to work toward. 
Travel spending, of the things I have looked at, actually is a 
place where it is tracked reasonably clearly, so we can track, 
for example, that the spending on travel in 2010 was at $17 
billion, and the drop that has occurred. So this is a place 
where there actually is relatively better transparency.
    Senator Johnson. How much more information do you need, 
though? I mean, on a scale of 1 to 10 in terms of information 
available to you as a manager trying to tighten up budgets, 
trying to tighten up these policies, how good is the 
information you have within these agencies?
    Ms. Cobert. It varies by agency. I do not have that detail 
yet.
    Senator Johnson. So which are the bad agencies? Which are 
the ones that really need the most improvement that just do not 
have the information--that are not following best practices?
    Ms. Cobert. Senator, I have not been able to go through 
this agency by agency in the time that I have been here yet, 
but we are continuing to work on that. I know the shared 
services--strategic sourcing arranged our places where we are 
trying to get that information out there and increase that 
visibility.
    Senator Johnson. OK. What else can force action? Mr. 
Tangherlini, just what else can really drive this process? As 
Senator Coburn said, when we are not looking at this, if the 
public turns attention off it, if we do not have another Star 
Wars video or Star Trek video, what is going to continue to 
force action?
    Mr. Tangherlini. I think you have really put your finger 
right on it. It really is transparency, and it is clear 
financial management. I think at some level you cannot 
legislate common sense; you cannot require common sense. You 
just have to apply common sense in managing these 
organizations. And I think, we had to have a real solid dose of 
it. We have now. We set a budget last year that was less than a 
third what we had spent in fiscal year 2015, and we made it our 
goal to come under that budget. We did. We are taking the 
savings, and we are putting it back into our critical mission, 
which is providing the facilities, the acquisition, and the 
technology that allow agencies to save money and deliver their 
mission.
    So I think we have to make sure we do create, while we have 
the opportunity, the systems and structures that allow people 
to apply good managerial judgment and common sense and make 
sure we get the outcomes we need.
    Senator Johnson. Then just one quick final question, 
because I agree, there can be some real value in these 
conferences. The social interaction, the person-to-person 
contact can be highly valuable. So my last question for you, 
Director Cobert. Are you hearing complaints from agencies where 
our drive to create efficiencies is actually doing damage, 
where we may be tightening down too much? Has there been a 
downside?
    Ms. Cobert. I think the restrictions we have put into place 
have forced some very tough conversations about whether they 
are able to have the kind of in-person interactions they need, 
whether, for example, restrictions on the number of people 
going, in an appropriate effort to manage the budget, is 
perhaps creating challenges for perhaps the more junior 
individuals who do not get that chance to interact. But I think 
those are the right conversations for agencies to be having. It 
is the right conversation to be thinking about who should 
attend, how do we share knowledge better, how can we substitute 
in other ways.
    For example, when faced with restrictions on travel, the 
National Institute of Health (NIH) started holding some of 
their peer reviews via videoconference. That saved them money, 
but it also in some cases enabled them to get access to 
individuals that otherwise would have been tough to reach.
    So I think we are having the right conversations. I think 
the issue you raise is an important risk that we have to watch 
carefully. But I think today the right conversations are taking 
place and good decisions are being made.
    Senator Johnson. OK. Well, again, thank you for your 
testimony and your efforts. We really are making some solid 
progress here. It is really good to see it. We want to make 
sure it continues. So thank you very much.
    Thank you, Mr. Chairman.
    Chairman Carper. Thanks so much.
    I understand that Senator Tester has yielded to Senator 
Heitkamp, so Senator Heitkamp, Senator Tester, and we welcome 
also Senator Pryor.
    Senator Heitkamp. Mr. Chairman, I do not know what that is 
going to cost me eventually, but----
    Senator Tester. A bunch. [Laughter.]

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. I think it might be dearly.
    Just a couple quick points, because I only have a limited 
amount of time. I think way too often on conference evaluation, 
you look at the travel and you look at the hotel and you look 
at all of that, you do not count the opportunity cost to that 
employee. And I am very curious about whether the 
Administration, or whether you as efficiency experts, have 
looked at these conferences from the standpoint of the 
opportunity cost to the employee. If the employee is traveling, 
obviously sitting in the chair now for 2 days at a conference, 
comes back, he or she obviously is not doing what they 
typically would be doing, but yet we never talk about that. And 
I am curious about whether in either agency you have begun a 
discussion about that as part of the evaluation of the 
necessity of the conference.
    Ms. Cobert. The issue you raise about opportunity costs is 
an important one, and I think the discussion starts with asking 
whether the conference itself will advance that individual's 
work and mission. So how can the conference directly impact the 
work that they are trying to do? It might be different work 
that they are doing at their desk, but how can they do that?
    I think the other piece that folks have looked at in doing 
this is thinking about not just the time that they are at the 
conference, but the travel to the conference. As someone who 
spent a great deal of her former life on an airplane, I think 
we can all attest to the fact that it is hard to be as 
productive sitting on a plane than it is sitting at your desk. 
And so what we have seen agencies do is think more carefully 
about planning of conferences. Can they have things back to 
back so you lose less time in travel? Can you do things in a 
way so you cut out an additional trip? Can you think about the 
timing of the start and end so you get people so they do not 
have to stay that extra night, they get back that night and get 
back to their desk in the morning? So those things I think help 
as well.
    Senator Heitkamp. I think what I am really asking, is there 
a systematic way, the same way you would evaluate other costs, 
that you include the cost of the employee's time in your 
evaluation as a matter of routine? Is that something you do 
right now?
    Ms. Cobert. I am not sure how agencies specifically do it. 
To me, the challenge in doing that is I want to start with the 
assumption that when the employee is at the conference, they 
are doing their work, just a different aspect of their work. 
Otherwise, they should not be at the conference, right? So I 
think how do you think about that tradeoff.
    Senator Heitkamp. But in terms of evaluating the cost of 
the training, I mean, I am not saying--I guess I put you off on 
the wrong track when I talked about opportunity costs. But I am 
talking about the fact that these conferences cost more than 
travel and hotels and meals. They cost time. And time is 
probably the most expensive piece of this.
    And so understand that that is an investment taxpayers make 
in that conference, and so we have to evaluate the total cost 
in order to completely understand the value that we are 
getting. And I just raise that question and would be curious 
about followup because I do not have a whole lot of time here. 
I share Dr. Coburn's concern about backsliding. If you do not 
have a true cultural change, if you do not have a true visceral 
kind of, ``No, we are not going to do that unless it is 
absolutely essential,'' then you need a bigger hammer than an 
Executive Order, or a bigger hammer than an IG report that may 
get finalized 2 years after you have left your executive 
position.
    And so, I mean, I am curious about a response to whether 
you would support legislation that would reinforce the work 
that you have done already in your administrative positions. 
And that is for either one of you.
    Ms. Cobert. We believe that we are succeeding in making the 
cultural change that you require. When you see the reductions 
in costs, in some cases of over 50, 60, the 80 percent that 
Administrator Tangherlini talked about, that comes--and we have 
seen the way that there are new guidelines to think about 
costs, including, I think, your idea about how you think about 
opportunity costs is an important element. We think those 
elements are driving the cultural change we need, and we think 
we continue to make progress, and we believe that the actions 
we have taken will be sustained. These orders would need to be 
rescinded. We think we have put in place something that can 
last beyond the current times.
    Mr. Tangherlini. I think efforts such as our Government 
Travel Advisory Council in which we have brought agencies and 
many layers of government, State, local, Federal, as well as 
private sector providers of these services, allow us then to 
feed back into things like the Federal Travel Regulations, 
which have for agencies the force and effect of law, to have 
more flexible kind of ability to respond to maybe the evolving 
nature of what conferences and travel look like.
    I think, as we have certainly during my tenure--and I know 
through my conversations with Deputy Director Cobert--we are 
very interested and committed to working with this Committee so 
that we leave a better institution than either of us found when 
we came here, because that is our commitment.
    Senator Heitkamp. My final question is there is always an 
assumption in what we say that it is better to be in the room 
with people. But yet, there does not seem to be a lot of 
science behind that; it is just our kind of, what we believe as 
human beings, that you and I can accomplish more face-to-face 
than we could teleconferencing. But I am not sure that that is 
true, and I think your point that some people can be in the 
room that otherwise could not be in the room so the experience 
may be more valuable. I would be curious about any followup 
that you would have in terms of studies that have been done 
about the relative merits of both ways of interacting. Because 
if we took all this money that I think was wasted on 
conferences and invested it in technology, think about how much 
further we would be ahead. I mean, we might even be able to put 
this kind of technology in very small places and be able to 
manage it.
    And so I am curious and would appreciate any followup that 
you have or any studies that you know of that do, in fact, 
analyze the two experiences.
    Ms. Cobert. I think the issue you are raising is a very 
important one, and I think that is one where we will continue 
to monitor the research. I do believe from my personal 
experience that this has continued to evolve. 
Videoconferencing, for example, is so much more effective today 
and easy to accomplish at small cost. It used to be highly 
expensive to install a special videoconference room, and so the 
cost effectiveness versus travel did not work. But today, when 
you can use your phone, your tablet, your laptop to do 
videoconferencing, it is actually quite inexpensive and 
increasingly reliable.
    So I think those studies are still emerging. One of our 
roles is to continue to look at that. It is the issue I raised 
at the beginning about measuring effectiveness. It can be more 
effective for some things than others because you get more 
people there, you are not spending time traveling to and fro. 
So the issues about how we take advantage of the changes in 
technology is something that is at the forefront of our 
attention, and we will be happy to work with you as we learn 
more about effectiveness and try and see what studies are being 
done to apply those in the Federal Government.
    Senator Heitkamp. And I just want to thank Senator Tester.
    Chairman Carper. We want to thank you for some good 
questions. Senator Tester, thank you so much.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman, and I want to 
thank both the panelists for being here today.
    Look, I think we all can agree that with conferences there 
are some benefits both to the person who attends and to the 
business that puts them on. I think that the examples that the 
Ranking Member gave are examples of abuses in the system. He 
also handed out a sheet--I believe it was from Dr. Coburn--that 
talked about the DOJ conference in Moscow and an Education 
conference and a VA conference in sunny Detroit. And whether 
you are talking about that, Anaheim, Las Vegas, or Big Sky in 
Montana, those are all places--well, maybe with one exception--
that people want to go to.
    The question becomes, though, in your testimony--first of 
all, let us take the International Drug Enforcement Conference, 
and I am sitting here at this dais. I have no clue if it could 
be done by teleconference. But it seems to me it could be. You 
are talking about international; you probably cannot send 
everybody you want to send there. Does OMB have any 
recommendations on teleconferencing? Have they been able to put 
out any rock solid recommendations? And if you have not, that 
is fine. Just let me know.
    Ms. Cobert. We have talked about how people can use 
different kinds of technologies, both teleconferencing and 
videoconferencing, but we do not have any formal guidance or 
recommendations.
    Senator Tester. OK. Do you anticipate there will be 
guidance on teleconferencing coming forward? I mean, take a 
look at education. We are talking about using tele-education 
all over the place. And I see there is merit. I believe there 
is merit of people looking one-on-one. But maybe not every 
year, or certainly not every quarter. So do you anticipate that 
coming out with a format of when they should probably use it 
and when they should not? Or what kind of metrics are you going 
to use?
    Ms. Cobert. The overall approach has been to encourage the 
use of those things and support the use of those things. We 
have not given specific guidance partly because it continues to 
evolve so rapidly.
    Senator Tester. All right. I got you. Yes, OK. We are 
talking about conferences, and then we are talking about 
travel. I want to go to your written testimony, Beth, and I 
will brief it up, but the Department of Treasury achieved $181 
million in travel savings; EPA, travel spending reduced by $35 
million; Interior achieved $99 million in travel savings; 
Department of Labor, $29 million in travel savings; Department 
of Defense reduced spending on hosting conferences. There are 
five examples. Four of them are different than the fifth. The 
fifth one talks about conferences. The top four talk about 
conferences and travel. Are you able to split the conferences 
out from the travel in these different agencies?
    Ms. Cobert. This is the issue that Administrator 
Tangherlini talked about earlier.
    Senator Tester. That is fine.
    Ms. Cobert. The travel codes, Code 21, and that is an 
explicit code----
    Senator Tester. Yes.
    Ms. Cobert. Much of the conference spending is coded into 
either contracting or other fields, so it is difficult still to 
track completely to the extent everyone would like conference 
expenditures----
    Senator Tester. Do you think----
    Ms. Cobert [continuing]. Track it for individual 
conferences because we have to accumulate them to get to the 
$100,000.
    Senator Tester. I think there is a huge difference, though, 
between conferences and travel. A huge difference. Do you think 
it is--I mean, I can tell you right now, you save 99--I should 
not say ``you.'' The Department of Interior saved $99 million 
in travel savings, and in a day where we do not have earmarks, 
I depend on those agencies to get out to see those projects so 
that they can make recommendations through the Administration 
on how to spend money, because we do not do it as a Legislative 
Branch anymore, which is a mistake.
    So the question is: When they reduce travel, they cannot 
get out to States like Montana that cost a bunch of money to 
get there? And so that becomes a problem.
    Now, we want to save money on travel, but the fact is that 
sometimes we are saving money, and it is costing us government 
efficiency in that savings. Is there any way to break that out, 
or is there going to be any recommendations on breaking that 
out?
    Ms. Cobert. We are continuing to work with agencies to 
improve the procedures they have to track conference spending 
specifically, including, for example, the tools that 
Administrator Tangherlini talked about earlier.
    Senator Tester. OK. When do you anticipate those 
recommendations coming out? Because I think they are pretty 
important. I will give you an example. Here is another one. Are 
you about to--because the Ranking Member brought up USDA. Are 
conferences that are held to inform farmers on farm program 
benefits considered conferences?
    Ms. Cobert. They do meet the definition of a conference.
    Senator Tester. OK. So we are talking--we are sitting 
here--and I appreciate you bringing it up because it clicked in 
my mind. We are sitting here, it costs $3,000 to send one 
employee to a conference where there are 150 farmers sitting 
there. That is considered a conference, and it looks to us like 
its spending is out of control, but on the other hand, it is 
the agency doing their job, telling folks what we have passed 
here in Congress. Is that a fair assessment?
    Ms. Cobert. We do think that the reason why we believe we 
have issued guidance with flexibilities for agencies is to take 
account of the factors like you are describing, that these 
things serve different purposes. Some conferences involve just 
Federal employees. Some involve members of the public and the 
community that those Federal employees are trying to interact 
with.
    Senator Tester. But they are not split out. They are not 
split out right now. The conference I think about is the folks 
going to Las Vegas and what you talked about, where all these 
agency folks are there. The other conference I am talking about 
is a conference where one or two Federal employees go, and they 
are giving information out. It is a conference setting. Are 
they split out?
    Ms. Cobert. In the disclosure about the conferences, the 
purpose of the conference is disclosed. So why it is being held 
and the kind of people that are attending.
    Senator Tester. OK. Hopefully we were able to drill down on 
that.
    I want to talk about conference spending overall. You 
talked about it, Dan, a little bit, that we were kind of 
building to 2010. I got to tell you, I do not remember this 
being an issue in the 1960s, 1970s, maybe even in the 1980s. 
Are you guys able to go back--maybe it is not the GSA; maybe it 
is somebody else--and determine what has gone on here over the 
years and how it was handled in the past? If it was not an 
issue, say, in the 1970s, how did they inform their folks? 
Because that information transfer is important. Go ahead.
    Mr. Tangherlini. Well, when I started in Federal service in 
the 1990s, I do not remember it being as prevalent an issue 
either, so that was one of my issues of curiosity when I got to 
GSA. When did this become such an important part of the way we 
approached our work? And I would have to say that the data, the 
quality of the data begins to degrade as you get into the early 
2000s. And as Deputy Director Cobert pointed out, we do not 
classify conference versus travel, and so we are looking at 
travel as a proxy.
    Senator Tester. Got you.
    Mr. Tangherlini. Because in order to go to a conference, 
you had to travel generally.
    So what we saw was that travel was building across the 
organization, but that was for the entire period of the 2000s. 
2010 was for GSA one of the higher years, but it was not the 
spike. We had just seen an increase over time. And so what we 
realized is that we had to start asking ourselves some 
fundamental questions about the way we deliver our mission and 
whether we should ask some questions about--assuming whether 
you should go to this trip or not or whether you needed to take 
that training by going somewhere or whether you could do it 
online.
    Senator Tester. OK. Mr. Chairman, I want to thank you for 
the opportunity to have this conversation. I think that we have 
to be careful. I think we look at top-line numbers here, and I 
think it is important we look at top-line numbers. But I think 
we also need to look at some government efficiency, because 
there are some out there that want to reduce government to the 
point where it does not work and then complain that government 
does not work.
    There are others out there that want to make sure that 
their agencies are lean and mean, and we do not have 
conferences where you have magicians and clowns and everything 
else.
    I do not see how we do this without splitting travel out 
from conferences. I just do not. I think it is too easy to sit 
there and pound one agency because they had an exorbitant 
conference at the expense of all the other agencies that are 
doing their travel right. And so I just think we take a look at 
it. There is no excuse for spending the kind of money we are 
spending on extravagant conferences, but on the other side of 
the coin, travel is pretty damn important for these agencies. 
And it is very important for me as a Senator from Montana 
representing folks out there to make sure the Executive Branch 
is able to do the job that they are telling people that they 
can do.
    Thank you, Mr. Chairman.
    Chairman Carper. Those are great points.
    I just want to share some commonsense things that I am 
aware of in the last couple of days, that we have in my own 
family found ways to reduce travel costs. Our youngest son, 
Ben, was going to join me at an event, and he could have flown 
out of Philadelphia International or he could have flown out of 
Baltimore Washington International (BWI). And he did some 
checking and found out he could cut his price in half. He paid 
for it himself, but he could save 50 percent.
    Last night I could have gone back to speak to the Delaware 
State Chamber of Commerce on a train, caught it at 6 o'clock as 
opposed to 6:05. At 6 o'clock the Acela costs twice as much. I 
took the 6:05.
    We find that if we want to book an airline flight, 
particularly if it is a conference or it is a meeting that is 
scheduled weeks or months in advance, the sooner you book it, 
as you know, the lower the price. And the same is true for 
trains. There are all kinds of common-sense things we can do.
    To Dr. Coburn's question, and, frankly, raised by others, 
of when the cameras are turned off, when the spotlight is off, 
how do we make sure that agencies do not backslide, and a big 
part of it is transparency. Sunshine is the best disinfectant. 
And we have a 24/7 media. They are looking for stuff to report 
on, and they like to do ``gotcha'' when it serves--and it is 
good that they do, especially when it serves a positive effect 
for the taxpayers and makes sure we get some better results for 
less money.
    One of the questions I have is: What further can we do on 
the legislative side that would actually bolster the efforts of 
the Administration, the very positive effects that we have 
seen? And when you are thinking about this, if you can give us 
some ideas now, that would be good. And I am also going to ask 
you to think about this beyond this hearing. If we are to 
consider some legislation, what could we do that would actually 
further ensure that progress has been made, continues, and 
maybe some progress that has not been begins? Please, Ms. 
Cobert.
    Ms. Cobert. Well, thank you for those comments, and I think 
one of the things that we can continue to benefit from is 
discussions like this one. Your continuing us to hold us 
responsible for the decisions that the Administration is making 
is important, and having a dialogue on this is something that 
we welcome.
    We believe we have made progress with the Executive Orders. 
We believe we are continuing to make progress and refine those 
and have those work better. And so I would like to take 
advantage of your comment and opportunity to come back, because 
I think we are learning. We have learned a lot of lessons from 
the experiences and success we have had, but we know we can and 
need to do more, and we want to continue down that path in 
partnership with you.
    Chairman Carper. All right. Thank you.
    Mr. Tangherlini, same question.
    Mr. Tangherlini. I appreciate the opportunity that that 
question represents. As an agency that provides a variety of 
different travel-related services to other agencies, such as 
the ETS system which agencies, most agencies use to book 
travel, a FedRooms program in which we have tried to aggregate 
the spend demand of agencies so that we can go and negotiate 
better prices with hotels, it is a great opportunity for us to 
work very closely with OMB so that the Administration can have 
a common response to your question.
    Chairman Carper. All right. And my last question--we 
welcome Senator Ayotte, and I have one last question, and then 
I am going to yield to you, Senator. I mentioned earlier that 
we had received a number of letters. I asked unanimous consent 
that those letters be made a part of the record, and they have 
been. One of the concerns raised in one of the letters was from 
our Majority Leader, and his letter to the Committee was about 
the informal blacklisting of specific locations because of the 
perception as resort locations. And to quote Senator Reid, I 
think he said--I think this is a quote. It says: ``Any 
decisions about government conferences or meetings should focus 
on providing the best value to the American taxpayers.'' I 
think that is--hard to argue with.
    I agree with him. In my opinion, if it makes sense 
financially to hold a meeting or a conference in a particular 
location, an agency should hold the meeting there. The fact 
that the location is someplace that people want to travel to 
should not prevent that location from being selected.
    And I would just say, Ms. Cobert, are you aware of any 
agency directive, either formal or informal, that would 
prohibit government conferences in resort or vacation 
destinations?
    Ms. Cobert. There is no guidance or regulations prohibiting 
conferences in resort-type locations. As you have indicated, we 
think the decision criteria, if you need to hold a conference, 
for where to hold that conference should be based on a number 
of factors. It should be based on cost, both the cost of the 
conference and the travel, the total cost of the conference. It 
should also be based upon effectiveness. Who are you trying to 
reach and what is the appropriate location?
    And so those are the guidelines that we want agencies to 
use in making these decisions, and we believe in doing so they 
should consider the range of places that could meet those needs 
at the lowest possible cost to the taxpayer and providing the 
most effective venue.
    Chairman Carper. OK, thanks. Thanks so much.
    Senator Ayotte, welcome. Glad to see you.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you. I want to thank the Chairman and 
Ranking Member for this important hearing.
    I wanted to followup, Ms. Cobert, just to ask you--I very 
much appreciate the guidelines that OMB has put in place and 
the progress we have seen in really coming down on wasteful 
spending with regard to government conferences and how our 
taxpayers dollars are being spent. One thing that, as I look at 
this, I am a cosponsor of Senator Coburn's legislation. How do 
we ensure that we have a permanent change in this culture of 
responsibility? Because as I look at it, it took us awhile to 
get here, and we have not--in looking back at 2012, that is 
relatively recent, and then we can have a change of 
Administration where the emphasis would not be there or a 
change in your agency, and that happens quite frequently. And 
so I guess the question would be: How do we ensure permanent 
change in the culture?
    Ms. Cobert. I think the question you are raising about a 
permanent change in culture is a very important one, and we 
believe we are making strides, important strides, in that 
direction.
    I am particularly encouraged by the reduction in spending 
in 2013 that has continued to exceed the savings that we 
achieved in 2012 and the decisionmaking and discipline that are 
being put into place in different agencies to sustain that kind 
of progress.
    I think the other elements that are helping us are the 
requirements that have been put in place around transparency so 
that spending, particularly on large conferences, is visible 
and needs to be justified and visible to the American public. I 
think as agencies have tried to implement the guidance, they 
have also been putting in place new tools and processes for 
approvals and decisionmaking and scrutiny that I think will be 
sustained, just as the Executive Order will remain in place 
unless someone makes an explicit action to rescind it.
    Senator Ayotte. One of the things that I think--obviously 
what brought us to this position where the guidelines were 
issued, there were a number of Treasury IG reports that were 
appalling. We have all seen the attention brought to some of 
the really outrageous events--foremost, of course, we saw with 
some of the events in the hot tub and all those issues.
    So one thing I worry about is that if this is just in 
guidelines and we do not do something permanent in terms of 
legislation, that this goes on the back burner again. And the 
things that you are trying to accomplish just become, OK, we 
have done it because everyone is paying attention to it right 
this moment, but there is no permanent shift there.
    So I understand what you are saying, but how do we make 
sure that this does not go on the back burner again on behalf 
of ensuring that when travel is done, it is done obviously that 
people are enhancing their productivity on behalf of the 
American taxpayer?
    Ms. Cobert. From the Administration's perspective, we are 
completely committed to continuing the discipline that we have 
put in place and that we need to continue to reinforce and, in 
fact, extend. We think transparency helps us there. In the 
continuing resolution, for example, there is also ongoing 
reporting to the IGs, and we are anxious to continue 
cooperating and working with the IG community and their 
important oversight role in this area, to continue to apply the 
scrutiny that we need for these kinds of events.
    So I think the changes in processes, the transparency, 
collaboration with the IG community are all parts of ensuring 
that the progress we have made is sustained.
    Senator Ayotte. I certainly appreciate the OMB guidelines. 
Do you think they are sufficient?
    Ms. Cobert. We have seen significant reductions in spend. 
We are pleased to see that. We also want to be mindful that 
things change. As we have talked about today, the opportunities 
to use alternatives like videoconference have expanded 
dramatically, even in the last couple of years. As those 
capabilities continue to expand, we think it is important to 
revisit the guidance and make sure that it is, in fact, putting 
sufficient pressure on agency behavior, but also not so much 
pressure that it prevents them from doing mission-critical 
things that do involve physical movement, physical collocation.
    So we will continue to evaluate and assess how do we put 
the appropriate level of scrutiny and guidance to make sure 
that taxpayers dollars are being spent wisely.
    Senator Ayotte. So this is something that obviously 
requires constant re-evaluation, and then I think the 
discussion for us here is: Is there any legislative backdrop 
that we need to ensure that there is a permanent culture change 
that this Committee would take up?
    And then I think another important question is: How do we 
measure the value of conferences; in other words, the value 
that an employee is receiving and also the value that, of 
course, within their role within the government makes them more 
productive on behalf of the taxpayer?
    Ms. Cobert. The issue about measuring the benefits of 
conferences is an important one, and one where we can continue 
to have greater discipline. If we send individuals to a 
scientific conference, what new ideas do they bring back? If we 
send individuals to in-person training, how do we judge the 
effectiveness of that training versus doing it online?
    So I think there are ways we can and need to continue to 
enhance measurement. If we send individuals to a conference to 
have outreach to the public, how do we make sure those messages 
are getting through? And I think we can continue to work on 
being more disciplined about having the right kind of metrics 
for the different kinds of conferences and reasons that we are 
bringing together. And we are anxious to work with this 
Committee and others on finding good ways to measure that.
    Senator Ayotte. Can you give me a sense of how much that is 
happening now? In other words, when there is a decision to have 
a conference, is there, ``Here are our goals up front, what we 
hope people will accomplish'' ? How much followup afterwards is 
happening in terms of what did you receive of value, how has 
that translated toward making your agency in a better, 
stronger, more productive position? I do not have a sense of 
how much that actually happens.
    Ms. Cobert. Because of the restrictions that have been put 
on dollars, we see agencies starting to put those procedures 
into place in terms of starting at the beginning to justify the 
conference. Why are they having it? Who should attend? How do 
they think about sharing the information that comes back?
    And so the decisionmaking, the tough decisionmaking that 
the guidelines have imposed have actually improved that process 
in agencies. We are happy to share some of the ways people 
think about that, but that is an explicit part of the decision 
process. I do not know if you have some specifics you can talk 
to, Dan.
    Mr. Tangherlini. It really depends on the conference. But 
in many cases, particularly conferences that we in the past 
have led, we do actually have participant surveys in which we 
ask participants whether they felt that this provided value, 
rate the quality of, say, the training experience. And we have 
used that in the past to--we have used that as we have 
discussed the possibility of continuing that activity or 
restarting that activity. In most cases it is the latter 
because GSA has really stopped offering much in the way of 
conferences, and we are asking ourselves the questions: Have we 
lost some opportunity for good training, good interaction? And 
so we are going back to those participant surveys and seeing if 
there is some value there that we have lost.
    Senator Ayotte. I know that my time has expired. It seems 
to me that I see the value in a participant survey, but I think 
that we need to go beyond that in terms of measuring what the 
participants are receiving in terms of how it translates to 
what they do in the agency. And that requires an objective 
view, I think with not only taking feedback from the 
participants, but also looking at it from the leadership within 
the management, of looking at it objectively toward how do we 
translate this into the job roles and making our workers more 
prepared and better able to serve.
    So I hope that we can go beyond that, and I look forward 
to--I think this is a very important issue for the Committee to 
address, and I certainly appreciate the hearing today, and I 
want to thank Senator Coburn for his legislation on this.
    Chairman Carper. All right. We are going to excuse you here 
in just a moment. I want to just go back to something that 
Senator Ayotte just mentioned, and that is culture. I have been 
on this Committee now for 13 years. Dr. Coburn has been on here 
almost that long. And one of the things we have sought to do is 
to help by working with OMB, working with GAO and Inspectors 
General, GSA and others, private groups, is to affect as best 
we can, whether it is the Legislative Branch, the Executive 
Branch, nonprofits, to start--it is like--I describe it as 
changing the course of an aircraft carrier. In the Navy, doing 
something hard, we always likened it to changing the course of 
an aircraft carrier. Or changing an aircraft engine when you 
are in flight, that is really hard. And this is hard to change 
the culture of something as big as the Federal Government. It 
does not mean you do not try.
    And part of our responsibility here in this Committee for a 
long time has been to really try and try again. I think we are 
blessed right now with good partners in the Executive Branch, 
and I am very much encouraged by what is being reported here 
today. Obviously we can do better, and we want to do better. 
And one of the questions that you are going to be thinking 
about and coming back to us on is a point that you have made 
and Dr. Coburn and others have made: Is there something more 
that we could be doing legislatively that would be really 
constructive, positive, and productive? My hope is that there 
will be, and if there is, we can work on something on a 
bipartisan basis.
    Thank you very much. It is just a pleasure considering that 
your nominations came before us not that long ago, not that 
many months ago, and you had a chance, Mr. Tangherlini, for a 
number of--actually, a year and a half or so now to serve on an 
acting basis, now on a confirmed basis, to see the work that 
you are doing, the leadership that you are providing. I am 
reminded again how important it is to have confirmed 
leadership, Senate-confirmed leadership in place in these 
important jobs, and you are a strong reminder of that to us 
today.
    When you get any of our questions, please respond to them. 
Thank you very much for your leadership, your stewardship, and 
your presence here today. Thank you. [Pause.]
    I am going to ask the Committee to come back into order, 
please. We are pleased to welcome our second panel of witnesses 
made up of three Inspectors General, and some of you have been 
before us before, and we welcome you back. I am just going to 
give a real brief introduction, and we will turn to you to make 
your statements.
    Our first witness on this panel is Inspector General 
Michael E. Horowitz, who was sworn in as the fourth confirmed 
Inspector General for the Department of Justice, a little less 
than 2 years ago, I think, April 16, 2012. As Inspector 
General, Mr. Horowitz oversees a nationwide workforce of 
approximately 450 special agents, auditors, inspectors, 
attorneys, and support staff whose mission is to detect and to 
deter waste, fraud, abuse, and misconduct in the Department of 
Justice programs and to promote economy and efficiency in 
Department operations. Prior to being confirmed as Inspector 
General, Mr. Horowitz was a partner in Cadwalader, Wickersham & 
Taft and also served for many years as an attorney at the 
Department of Justice. We thank you very much for joining us 
and for your service today.
    Next, we have Inspector General of the U.S. General 
Services Administration, Brian D. Miller. Mr. Miller was 
confirmed by the U.S. Senate on July 22, 2005, so it has been 8 
years. As Inspector General, Mr. Miller leads special agents, 
lawyers, and support staff in conducting nationwide audits and 
investigations. His office's work on GSA's 2010 Western Regions 
Conference in Las Vegas, Nevada, has had a ripple effect on 
travel and conference spending across our Federal Government 
and is one of the main reasons we are here today, and we thank 
you for that. Prior to becoming Inspector General at GSA, Mr. 
Miller worked for the U.S. Department of Justice for 15 years. 
Thanks again for your work and your presence today.
    Our third witness is J. Russell George, who has served as 
Treasury Inspector General for Tax Administration since 
November 2004, almost a decade. Prior to assuming this role, 
Mr. George served as the Inspector General of the Corporation 
for National and Community Services for several years. In 
addition to his duties as the Inspector General for Tax 
Administration, Mr. George serves as a member of the Recovery 
Accountability and Transparency Board and a member of the 
Integrity Committee of the Council of Inspectors General for 
Integrity and Efficiency (CIGIE). I think that makes you twice 
a citizen. But Mr. George began his career as a prosecutor in 
Queens and later served as staff director and chief counsel for 
the Government Management Information and Technology 
Subcommittee in the U.S. House of Representatives. Mr. George, 
great to see you, and thank you for joining us today.
    We all look forward to your testimonies, and your entire 
statements will be made part of the record. Feel free to 
summarize as you wish, and try to keep within about 7 minutes, 
and then we have our caucus luncheons before too long, so we 
would like to get to them before they are over. So thank you 
again for your good work and for your testimonies today.
    Mr. Horowitz, do you want to lead us off?

    TESTIMONY OF THE HON. MICHAEL E. HOROWITZ,\1\ INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Chairman Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    Chairman Carper, Dr. Coburn, Members of the Committee, 
thank you for inviting me to testify at today's important 
hearing.
    Since 2007, my office has conducted two audits of 
conference spending by the Department of Justice. In both of 
those reports, we identified significant concerns regarding 
conference expenditures and reporting.
    In September 2007, the Office of Inspector General (OIG) 
issued an audit report examining 10 conferences sponsored by 
DOJ components between October 2004 and September 2006. We 
found that Department sponsors did not ensure that conference 
event planners offered the best value for the fees charged. We 
further found that expenditures for meals and receptions 
appeared to be excessive, and that significant service charges 
were applied to such costs. Further, we identified inconsistent 
reporting of conference expenditures by components to the 
Department's leadership, and that the Department did not 
maintain a single financial reporting system capable of 
providing the costs of Department conferences.
    We made 14 recommendations to the Department. For example, 
we recommended that the Department implement specific guidance 
regarding cost comparisons for conference locations and venues; 
that they develop conference food and beverage policies; and 
that they evaluate methods for the use of external conference 
event planners. In response to our recommendations, the 
Department issued new guidelines on conference planning and 
reporting.
    In a followup audit that we did in September 2011, we 
reviewed again 10 conferences from the Department that occurred 
this time between October 2007 and September 2009. We found 
continued concerns with regard to certain spending on 
conference event planners. We further found that some 
Department components did not minimize conference food and 
beverage costs as required by Federal and Department 
guidelines. We made 10 recommendations in that report to the 
Department, including that the Department only use training and 
technical assistance providers when it was the most cost-
effective method available; the components be required to 
conduct a cost/benefit analysis when considering whether to 
order food and beverages in order to obtain free meeting space; 
and that the Department establish food and beverage guidelines 
for conferences supported by cooperative agreement funds.
    Shortly after this audit, OMB issued memoranda addressing 
conference spending, and in June 2012, the Department released 
revised policies on conference spending.
    Yesterday the Department provided us with a report on 
conferences it held in fiscal year 2013, and the report showed 
that the Department spent approximately $23 million last fiscal 
year on conferences, significantly less than it did in fiscal 
year 2012.
    Now that we have this information, the OIG intends to 
initiate shortly an audit of selected conferences identified in 
yesterday's report which will enable us to not only evaluate 
whether the Department expended funds in an appropriate manner 
but also to, most importantly, I think, assess the additional 
controls it implemented in June 2012.
    The OIG plays a critical role in ensuring that taxpayer 
money is spent effectively and efficiently. We will continue to 
do all we can to oversee conference expenditures by the 
Department.
    I would be pleased to answer any questions the Committee 
may have. Thank you, Mr. Chairman.
    Chairman Carper. Thank you so much.
    Inspector General Miller, thank you.

 TESTIMONY OF THE HON. BRIAN D. MILLER,\1\ INSPECTOR GENERAL, 
              U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Miller. Chairman Carper, Ranking Member Coburn, and 
Members of the Committee, thank you for the opportunity to 
testify at today's hearing. I appreciate the Committee's 
longstanding interest in oversight as well as its continued 
support of my office's oversight efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    Our reviews of GSA conferences found: contracts signed by 
individuals without a contracting warrant; contracting officers 
being brought in after the fact to ratify decisions already 
taken by event planners rather than in the initial acquisition 
planning process; the use of outside event planners without a 
contract with the agency; improperly providing source 
information to contractors; and other examples of non-
compliance with the Federal Acquisition Regulation (FAR) and 
the General Services Administration's manual.
    After our report on the Western Regions Conference, 
congressional oversight and transparency increased, which led 
to more accountability and internal controls. For example, GSA 
has recognized and consolidated its Office of the CFO and the 
Office of Administrative Services, which implemented tight 
controls over conference and travel spending. Additionally, GSA 
introduced an online training session on conference attendance 
that is mandatory for every employee.
    In 2013, the Congress required agencies to report 
conferences costing over $20,000 to their Offices of Inspectors 
General within 15 days. Additionally, OMB directed agencies to: 
one, significantly reduce travel expenses; two, initiate 
senior-level review and approval of all planned and future 
conference expenses in excess of $100,000; three, prohibit 
expenses in excess of $500,000 unless an agency head provides a 
waiver in writing; and, four, publicly report on all conference 
expenses in excess of $100,000. The memorandum also directed 
the Department of Defense, GSA, and OMB to review the Joint 
Federal Travel Regulations and the Federal Travel Regulation to 
ensure that policies promote cost savings.
    Theoretically, these requirements should discourage further 
conference abuses. I think a continued focus on transparency in 
conference spending will help ensure that internal controls and 
accountability remain. While I am encouraged by the steps GSA 
has taken, we have not had occasion to review a more recent 
conference, and accordingly, our assessment, while positive, is 
only theoretical.
    In closing, I would like to thank the Committee for their 
continued support of my office, and I welcome any questions 
that the Committee may have.
    Chairman Carper. Thanks so much, Mr. Miller. Mr. George.

 TESTIMONY OF THE HON. J. RUSSELL GEORGE,\1\ INSPECTOR GENERAL 
    FOR TAX ADMINISTRATION, U.S. DEPARTMENT OF THE TREASURY

    Mr. George. Thank you, Chairman Carper, Dr. Coburn, Senator 
Johnson. Thank you for the opportunity to discuss IRS 
conference spending. Today's testimony highlights the results 
of our audit of IRS conference spending for fiscal years 2010 
through 2012 and updates the IRS' progress implementing our 
nine recommendations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. George appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Overall, the IRS spent an estimated $49 million for 225 
conferences during the 3-year period. Our primary focus was on 
an August 2010 management conference held in Anaheim, 
California. This conference was selected because the Treasury 
Inspector General for Tax Administration (TIGTA) received an 
allegation of excessive spending and it was the most expensive 
conference that they held.
    The conference was held at the Marriott, Hilton, and 
Sheraton hotels in Anaheim in August 2010 at a reported cost of 
$4.1 million and for an estimated 2,600 executives and 
managers.
    Some of our key findings for the Anaheim conference 
include:
    The IRS did not have effective controls to track and report 
the costs of conference;
    The IRS used two event planners that were not under 
contract with the IRS and had no incentive to negotiate a 
favorable room rate. They were paid an estimated total of 
$133,000 in commissions by the hotels, and rather than 
negotiate for a lower room rate, the planners specifically 
requested 25 or more very important person (VIP) suite 
upgrades, complementary drinks, and other refreshments.
    Other examples of questionable spending include: planning 
trips costing $35,000; two video productions shown at the 
conference; $44,000 in travel costs for employees to staff 
information booths in an exhibition hall; gifts and trinkets 
given to IRS employees costing $64,000; and $135,000 expended 
for outside speakers.
    To its credit, annual conference spending at the IRS 
dropped from $38 million in fiscal year 2010 to $5 million in 
fiscal year 2012. The IRS attributes the reduction of spending 
in part to enhanced policies and controls which include 
Department of the Treasury and Office of Management and Budget 
guidelines.
    I also want to point out that conferences can serve an 
important function at the IRS. For example, the IRS nationwide 
Tax Forums offer 3 days of seminars presented by IRS personnel 
in the fields of tax law, compliance, and ethics. These forums 
provide training and outreach to taxpayers and practitioners.
    I believe the policies and guidelines issued since the 
Anaheim conference by the Department of the Treasury will help 
to ensure that some of the questionable expenses we identified 
do not recur. However, notwithstanding these actions, we 
identified additional improvements needed and, again, made nine 
recommendations to enhance controls. The IRS agreed with these 
recommendations and in response has issued interim guidance. 
According to the IRS, this guidance will be formalized in a 
future update to the Internal Revenue Manual. Specifically, the 
IRS has issued guidance to: enhance controls over the 
monitoring and tracking of conference spending; clarify when 
conference sessions qualify for continuing professional 
education credits; ensure applicable IRS personnel are 
contacted to coordinate future conference spending; outline the 
appropriate use of nongovernmental event planners; clarify when 
planning trips should be performed for conferences; institute a 
video review board to approve requests for video development 
across the IRS; outline the appropriate use of hotel room suite 
upgrades by IRS employees; and clearly outline the need for and 
value provided by any information corridors and exhibitor 
halls. Once the IRS finalizes its interim guidance, we at TIGTA 
plan to issue a final report on whether the IRS has fully 
implemented all of our recommendations.
    Chairman Carper, Dr. Coburn, Senator Johnson, thank you for 
the invitation to appear. I look forward to your questions.
    Chairman Carper. All right. Thanks to each of you for what 
you have reported and shared with us today. It is actually 
quite encouraging, the work that you are doing and the folks 
that you lead are doing. We are grateful for that.
    Dr. Coburn said to me at the end of the first panel, he 
said, ``We are talking about culture change.'' And he said the 
kind of culture change we need, and I will paraphrase him, is 
to better ensure that Federal employees are spending Federal 
dollars as if it were their own money. And I think there is a 
lot of wisdom in those words.
    I am not entirely sure how we do that, but I think in my 
life, and my guess is probably yours as well, when I have been 
involved in the expenditure of State monies as Governor and 
treasurer, I tried to think of it, if this were my money, how 
would I want to be spending it, and I would like to think I 
would bring the same kind of discipline today.
    One of the things that was actually very effective for me 
in looking at the way that we managed State monies in Delaware 
in my earlier roles is that we had a reporter for our only 
statewide newspaper whose name was Ralph Moyed, and he is now 
deceased, but the last thing you wanted--a guy in my business, 
the last thing you wanted--and my guess is Dr. Coburn and 
Senator Johnson probably have reporters back in their States. 
The last thing I wanted to see was an article that he had 
written about one of the programs that I was responsible for 
running or expenditures that we had made that was kind of a 
``gotcha'' piece that would be on the front page of the paper 
above the fold in Pearl Harbor size type.
    What we would actually use is we were trying to think about 
doing something, an outlay or an expenditure or some policy, we 
would always say to ourselves, ``Now, how would we like to see 
this reported on by Ralph Moyed and see that front-page article 
above the fold in Pearl Harbor headline?'' It was actually 
helpful discipline.
    The first question I want to ask of you is this: You heard 
the first panel of witnesses that were here. You have given us 
your own testimony. Just react, if you will, to some of the 
discussion that you heard between them and with us, 
particularly how do we make sure that we do not backslide, the 
agencies do not backslide? What further can we do here from the 
Legislative Branch that would be constructive toward making 
sure that we do not backslide, that we actually build on the 
good work that is being done? Mr. George.
    Mr. George. Senator Carper, and I refer to this in my 
statement--yes, you do not want a culture of people sitting in 
hot tubs taking pictures of themselves drinking flutes of 
champagne.
    Chairman Carper. At least not on Federal dollars.
    Mr. George. Well, exactly. But there is no question that it 
is imperative that we do not go too far in the other direction, 
too; that people need to have interaction. Especially when you 
have an organization the size of the Internal Revenue Service 
and the great role that it plays, it has to ensure--the 
American people have to be assured of the fact that the people 
who are working for this organization are top-notch, are 
getting that oversight, and, again, there have been some recent 
scandals within the IRS where there has been a lack of 
communications between headquarters and some field offices. And 
I believe that, constant communication--and I am not saying you 
have to take 50 people with you, but the head of the agency, in 
this instance John Koskinen, the new Commissioner, is going out 
and is visiting his largest field offices. And that is 
extraordinarily important to ensure that the people out in the 
field who are the ones that the majority of Americans interact 
with do not feel a disconnect, the employees, the IRS 
employees----
    Chairman Carper. If I can interrupt just for a second, 
Secretary Jeh Johnson shared with us, Dr. Coburn and me, that 
is exactly what he is doing in his early days at Secretary, 
which is smart. Good thanks. Mr. Miller. Mr. Horowitz.
    Mr. Miller. Well, one of the things you raised earlier was 
what I will call the ``human factor.'' Unfortunately, there is 
a human factor. You always have people who will try and 
circumvent the rules. And we saw that with the Western Regions 
Conference. We had individuals who knew what the rules were. 
They knew the rules so well that they knew how to circumvent 
them and minimize the rules. And, unfortunately, you will 
always have the human factor.
    So as you said, Mr. Chairman, changing the culture is very 
important, a vital part of what we are doing, and having 
Federal officials treat the money as if it were their own and 
to be careful with the money----
    Chairman Carper. And I might add to that, it is all well 
and good that we want the rank-and-file to use good judgment, 
subscribe to these standards that are set. It is really 
important that the leaders of these agencies lead by their 
example, not do what I say but actually do what I do. Go ahead.
    Mr. Miller. Right, ``tone at the top.'' And, we have 
identified a number of problems, and I can list a number of 
problems with the procurement process. But you could have a 
perfectly done procurement for a clown, and it is still 
wasteful. So you need to have that leadership, the tone at the 
top.
    Chairman Carper. I wonder what a perfectly done procurement 
for a clown would look like. [Laughter.]
    Mr. Miller. Well, they would not be sharing source 
selection information, for one thing.
    Chairman Carper. I suspect not.
    Mr. Miller. But you do have this human factor. But you do 
have a number of other problems that it seems that the 
Administrator at GSA is trying to address and procedural 
problems, so, we do see some progress in theory. We have not 
had a chance to test it. As IGs, we look at facts, and we look 
at empirical evidence. And so at GSA we have not had a 
conference--well, Administrator Tangherlini has testified that 
there was not a conference over $100,000, so we have not had 
occasion to do a strict audit to test the controls, to review 
the controls to see how effective they are.
    So, it is one thing to patch a hole in a boat and say, 
well, the patch looks pretty good; but until you take it out on 
the sea, you will not really see if it is seaworthy.
    Chairman Carper. OK.
    Mr. Horowitz, just very briefly, please.
    Mr. Horowitz. Yes, just a couple things. I think what 
struck me as I listened to the first discussion and heard my 
fellow IGs is how similar the problems were across our 
agencies. You had not only the culture issues that have been 
discussed; you had a lack of controls such that senior 
management, no matter how much they wanted to oversee it, did 
not have the controls in place to actually do it. And you had a 
lack of good reporting data going upstream. And that has been 
talked about, and that is still an issue, as we have all found 
in our various audits.
    So you need the culture. You need management to oversee it. 
But you also need to give them the tools and the ability to 
actually do the work we are talking about. And the other part 
of this, which Congress has legislated on, is the transparency 
issue, making sure the information gets out there because of 
the importance of the transparency on these conferences.
    I will add just one other thing that we have talked about 
in our reports that I think is critical, and that is the cost/
benefit analysis, it was touched on briefly but really has not 
seeped in across the board. It covers a variety of issues. We 
found it on event planners. Many of the components were doing 
it on their own. They did not need event planners. It was not 
hard work internally, what you would expect in an organization, 
private sector or public sector, to think about what is the 
benefit of what we are getting versus what we are spending. And 
that goes to what Senator Ayotte mentioned and some of the 
things we have talked about internally in my office, which is 
are folks being required to document before the conference what 
the value is, what the justification is, and afterwards, what 
is the after-action on it? Is someone doing followup?
    There are not perfect systems in place. That is a very 
difficult thing to do. But the discipline of doing it in and of 
itself I think has great value.
    Chairman Carper. All right. Great. And before I turn it 
over to Dr. Coburn, I will just say this: We will be providing 
our colleagues some time to submit questions for the record, 
and we would appreciate your prompt response to those 
questions.
    One of the questions I will be submitting, again--and I 
mentioned this to the first panel--is that if there were to be 
some kind of legislative action relating to these issues to try 
to make sure that we do not backslide; by the same token, 
whether there is value in travel and in conferences that 
actually takes place. But if there were to be legislation, what 
would you suggest that we consider? And if you could 
collaborate and actually reach out to some other IGs, that 
would be all the better. Thank you. Dr. Coburn.
    Senator Coburn. Thank you. Just to comment on Inspector 
General George's comment, there are conferences and then there 
is a conference. A Commissioner of the IRS going out to see his 
troops is not a conference. It is leadership. It is management. 
And if we cannot ascertain the difference between good 
management where you are going out to, one, be informed of the 
troops, but also communicate leadership, and a conference, then 
we have bigger problems than we have even begun to think about. 
And it kind of goes back to what Senator Tester mentioned in 
the earlier panel. It is not about that. We are not talking 
about that. We are talking about the excesses of meetings 
mainly for Federal employees and their benefit, and many times 
those are proper conferences that could be done much more 
economically with much lower costs and much more efficiently.
    So I take your comments to heart, Inspector General George. 
There is no question we want them to continue to do that. We 
are not trying to squelch any of that. We want good leadership. 
And he is displaying that as he travels. So is Jeh Johnson as 
he travels. So it is not about that.
    General Horowitz, if DOJ tomorrow for this year wanted to 
spend $150 million on conferences, is there anything to keep 
them from doing it?
    Mr. Horowitz. Subject to as long as the Attorney General 
(AG) approved the expense and----
    Senator Coburn. Yes, so if they want to----
    Mr. Horowitz [continuing]. Determined it was consistent 
with their guidelines, they could go forward and do it.
    Senator Coburn. So even though 12-12 is on the books, there 
are no consequences for not following it.
    Mr. Horowitz. Other than our after-the-fact review that we 
would do.
    Senator Coburn. Yes, but that is after the fact, and the 
money is out the door. So the point is one of the things is 
transparency, which is part of that. But to really have 
transparency to where each agency submits their conference 
costs.
    You mentioned private sector. There is not a business in 
the world that does not look at what it spends on conferences 
to see if they are getting value out of the conference. Do they 
sometimes use conferences as ``atta-boy's'' to motivate? Yes, 
and there is not anything wrong with the Federal Government 
doing that as well. But the question is: Did we get some value 
out of it as we spent those dollars?
    And so there is a big cultural difference between Federal 
management and private management, and one is their job is 
dependent on them doing it efficiently and effectively and they 
are growing the bottom line every year. The other is I am 
penalized if we do not spend all the money we have. That is the 
difference in the cultures.
    And so I think, first of all, let me say to each of you I 
am so thankful you are where you are. I appreciate personally 
as a taxpayer, as a Senator, and as a grandfather that you have 
an open eye. I do not know what we would do without our 
Inspectors General in terms of catching things and bringing our 
attention. But I think the most important thing that I worry 
about is there is a spotlight right now. Everybody is focusing 
on it. It has been in the press. And that is not going to be 
the case 5 years from now.
    So I am not fearful of having some legislation as long as 
it is commonsense, it does not restrict the ability of 
management to make good decisions, but the most important thing 
is transparency on what you are doing and why you are doing it 
and what the cost/benefit analysis is.
    Do you all have any disagreement with that?
    Mr. George. I do not have a disagreement with that, but if 
I may beg your indulgence, Senator, because you have raised 
some very cogent points and you touched on something that 
Senator Tester mentioned. When the IRS holds their nationwide 
Tax Forums, which, again, are extraordinarily beneficial for 
all involved, the most well attended one happens to be in Las 
Vegas because a lot of people like to go to Las Vegas. That 
does not mean that--and we have not had allegations that IRS 
employees have been out gambling instead of training. But it 
does bring together the tax preparer community, which is 
extraordinarily important when we have this ever changing tax 
policy that is occurring.
    Senator Coburn. Well, there is no problem with that. The 
fact is they are out to educate the people who are key to 
compliance with the Tax Code. It does not matter where they 
have it because the vast majority of that money is not spent by 
the Federal Government. It is spent by the tax compliers. And 
they are free to spend their money any way they want. And so 
that may be a popular destination for the whole country. That 
is not the question. The question is not whether we are doing 
it to train people outside of the government. The question is: 
Are we doing this as a fluff or an ``atta-boy'' for Federal 
employees? And I think most of them would rather have a bump in 
their general schedule (GS) level or a bonus than travel. So we 
have hit that with a dead horse.
    Mr. George. I can assure you, sir, I have never gone to 
Vegas, just for the record.
    Senator Coburn. OK. [Laughter.]
    One of the things I think would be interesting, General 
Miller, is what are the things that other agencies can learn 
from what you all have done in terms of looking at this? In 
other words, they do not have to reinvent the wheel. They can 
actually come and look at your work product and say we are 
going to go and apply this. Has that happened to your knowledge 
in other agencies? Have they contacted you and said, ``Hey, we 
are looking at this. How did you go about it?''
    Mr. Miller. Not from other agencies. Other IGs have 
contacted me and said, ``We are looking at conferences. What 
did you learn? How can we look at this effectively?'' In fact, 
Russell contacted me and other IGs have contacted me about 
that.
    But as far as other agencies, no, they have not. There are 
some general things to look at. Obviously, are employees 
familiar with the policies and procedures and regulations? Is 
there this lack of visibility that you talked about with the 
first panel? This problem of finding out how much did the 
conference cost. That was a huge problem with the Western 
Regions conference because they funded it out of about four or 
five different pots. And when you asked them how much did it 
cost, it was, a fraction of what the real cost was. And that is 
also our problem in looking at previous conferences at GSA over 
the years, because the stated cost is often not the true cost. 
And so tracking that funding is a huge----
    Senator Coburn. That kind of goes to the Anaheim 
conference. You do not really know what the true cost of that 
conference is, correct?
    Mr. George. That is correct.
    Senator Coburn. Supposedly $4.1 million, but you really do 
not know. It is in excess of that. We can all assume that.
    Mr. George. Yes, we do not have an exact amount.
    Senator Coburn. So one final point. Anything that we would 
do--one of the things, transparency is really helpful. So if, 
in fact, we had a report to Congress every year by each agency 
or to the OMB with a copy to Congress, here is what we spent on 
conferences, here is how many people attended, here is our 
cost/benefit analysis, this is on our website--like we said, 
they are supposed to be on the website, but they are not there, 
I can assure you. So that is not transparency.
    So if, in fact, you say there is a report to Congress that 
is due every year, here is what we spent on conferences, here 
is how many people went, here is what our goals were, here is 
our cost/benefit analysis, just the fact that you have to 
report that--now, as you said, they are not always going to 
follow the law, but the fact is that now is a requirement of 
statute: justify your spending of money.
    Then, in fact, we might see some change. There is no 
question we have. The Justice Department went from $90 million 
to $57 million now to $23 million. So, we are at a fourth of 
what we were 3 years ago in just the Department of Justice. And 
one of the reasons, one is probably sequester, but the other is 
sunshine. Sunshine got put out there. And so all I want is--I 
am not always going to be here, Senator Carper is not going to 
be here, Senator Johnson is not going to be here. You are not 
always going to be here. It is not going to always be a 
priority. How do we make sure our thumb stays on this? And it 
has to be through transparency, and it has to be through forced 
transparency.
    So my hope is that you all will teach us more about what we 
do. I would love to have your feedback on what you think we 
ought to put in that so it is not onerous.
    The final point I would make is if that is onerous on an 
agency to do that, then they do not have the controls they need 
right now to make decisions about conferences. So it cannot be 
onerous, and if it is onerous, they do not know how they are 
operating their agency, because they should have that 
information as it is. Thank you.
    Mr. Miller. If I could----
    Chairman Carper. Just very briefly.
    Mr. Miller. Dr. Coburn, obviously we are not policymakers, 
but we are law enforcement, and as law enforcement we like 
clear standards, we like bright lines. So that would be 
important in legislation.
    Agencies also need flexibility to meet unforeseen 
circumstances and emergencies, so those are at least two very 
broad perspectives from an IG perspective, and we would be 
happy to work with your staff on the bill.
    Senator Coburn. Thank you very much.
    Chairman Carper. All right. Thank you, Tom. Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I think one thing 
we can do in terms of keeping that spotlight on this would be 
something the Committee--I am sorry that Senator Coburn is 
leaving. Senator Coburn----
    Chairman Carper. I am still here.
    Senator Johnson. But I want to give him a shout-out. He has 
done a phenomenal job at issuing reports, whether it is his 
waste book or various ways of highlighting these issues on an 
annual basis. I think a really good bipartisan effort, Mr. 
Chairman, is if we as this Committee published once a year that 
accumulation from all the different agencies, here is what they 
spent on conferences. I would also suggest here is what we 
spent on travel and entertainment--well, there should not be 
entertainment, I guess, in the government. Certainly there is 
in private industry. So, again, we have to shine that 
spotlight, and this might be something this Committee could do, 
accumulating that information, and getting it out there so that 
agency heads realize that this information is going to be 
public every year and we are going to make a big deal about it, 
and that does not go away. That is a control that I think would 
actually work.
    Mr. Horowitz, you talked about a lack of good reporting 
data. I just want to go through each Inspector General. 
Certainly a frustration of mine continues to be a lack of good 
information. I mean, the fact that we do not have a common 
accounting system, that we do not have a common way of 
accounting for these things is ridiculous. This government has 
been in existence a lot of years. The fact that we do not have 
that commonality through the agencies for reporting is 
ridiculous.
    So I just want to go down the list here or down the table. 
What information do you need? I mean, how would you want to 
accumulate it?
    Mr. Horowitz. Well, I think in today's day and age, better 
coding. The Deputy Director of OMB mentioned that in the first 
panel, how we code well on travel but not in the other areas. 
For example, when the Department makes a grant, the 
Department--let us assume the Department is not involved in the 
conference the grant recipient receives. There is no clear 
coding of that. For us to be able to go into the grant and see 
there was a conference held with grant money that the 
Department was not part of, we have to go rummage through the 
report back----
    Senator Johnson. Is that a piece of legislation that is 
required? I mean, I would think the OMB could basically force 
agencies to do so and I was talking about how can we force 
action. I would think OMB could do this on their own. But do we 
need to pass a piece of legislation to get that commonality of 
coding?
    Mr. Horowitz. Well, I certainly agree with you. I think 
stepping back and looking at what is available from the 
accounting standpoint, I am certainly happy to talk to my 
auditors from what they have seen in looking at cost accounting 
and where it could be helpful to them and report back to you on 
that.
    Senator Johnson. OK. Mr. Miller.
    Mr. Miller. Well, one thing that would help us in analyzing 
conferences is for auditors to have read-only access to all 
electronic databases and to have that immediately so there is 
not a long delay in filling out forms and getting that access.
    We have been successful in getting that access, but that 
would be an aspect that would help us to review the 
conferences. So that is one thing that would help.
    Senator Johnson. If you had proper coding, though, would 
you really need the read-only access? Because wouldn't this 
information be readily available to any auditor?
    Mr. Miller. Well, we always want to verify.
    Senator Johnson. OK.
    Mr. Miller. So, it may be coded incorrectly.
    Senator Johnson. OK, got you.
    Mr. Miller. It would help, certainly.
    Senator Johnson. Mr. George.
    Mr. George. Senator, I would request that the 
Appropriations Committee in their appropriations to an agency 
indicate on an annual basis or semiannual basis: we want a 
report on exactly how much money was expended toward this type 
of activity. And, I do not think that would be a rule against 
legislating on an appropriations bill; it is simply requesting 
a report on how the money was expended.
    Senator Johnson. Well, that sets me up perfectly for my 
next question. So the first solution is about information, 
sunshine, shine the spotlight on the problem, the issue, so 
that agency heads, people in these agencies understand that the 
public will scrutinize what they are doing.
    The second and probably the most effective control--and I 
just want to throw this question out to all of you. Do you know 
of a more effective control for squeezing efficiencies than 
restricting a budget? Is there anything better at generating 
efficiencies than decreasing what people have to spend? I will 
start with you, Mr. George.
    Mr. George. Well, obviously, hearings such as this and 
reports from IGs have that impact. But then ultimately tying 
performance to how they conduct themselves in an area of this 
great import as it is as of now, so whether it is the Deputy 
Secretary or whether it is the Assistant Secretary for 
Management or the Chief Financial Officer, having, he or she--
--
    Senator Johnson. That is not exactly what I was talking 
about. That is almost merit pay. What I am talking about, for 
example, Mr. George, you talked about the IRS. In fiscal year 
2010, they spent $38 million on this, and then in fiscal year 
2011 $6 million, and then in fiscal year 2012 $5 million. There 
I would think the IRS is going to have to squeeze some 
efficiencies out of their conference and travel spending, 
correct?
    Mr. George. That is correct.
    Senator Johnson. Is anybody squealing about that? Have we 
gone too far? Are we being penny-wise and pound-foolish 
spending $5 million?
    Mr. George. It is too early for me to make a definitive 
statement in response to that, sir, but we will definitely look 
at the impact that this has had on training and on other 
communications with taxpayers.
    Senator Johnson. But as a manager in the private sector, 
that would be my first--if I have abuse in a Department, I 
would go, OK, you are getting less money, and let us see how 
you operate with less money. And, again, then you have the 
pushback, as Senator Ayotte and Senator Tester were talking 
about, in terms of that cost/benefit analysis, going, well, 
maybe it went too far.
    Wouldn't that be a pretty effective control? I mean, we 
talk about all these controls in theory, but the most effective 
control is how much money do you have to spend?
    Mr. George. I concur with everything that you have said, 
sir, but with the caveat again that when you are talking about 
the Internal Revenue Service, the income-generating arm of the 
U.S. Government, you really, if anything, want to ensure that 
they have the resources necessary. Yes, restrict how they can 
expend those resources, but I----
    Senator Johnson. Oh, sure. No, I am talking about budgets 
within the agencies, how you allocate those funds.
    Mr. Miller, do you have any disagreement with what I am 
saying there?
    Mr. Miller. No, none. Purse strings have always been an 
effective tool for the legislature.
    Senator Johnson. Mr. Horowitz.
    Mr. Horowitz. None.
    Senator Johnson. Well, so there we go. We have a unanimous 
opinion there that--from my standpoint, the first place to 
start is in their budgets. Let us pare them back, let us force 
efficiency. Then we will go back to the agencies and go, ``Did 
we go too far? ''
    Mr. Horowitz. And can I add on that, one of the important 
things about that is to understand then for the oversight body, 
the IGs, the leadership. How did each agency get there? What 
were the best practices? Sharing the information across 
departments so that others can benefit. Much as you have asked 
what we have done, I think that is the other part of it. How do 
you get efficiencies? Who is using the video teleconferencing? 
How are they using it? Who is using it most effectively?
    Just to give you an example, one of the things on training 
that we have been struggling with at the Department, I have a 
law license. I need continuing legal education. I have my 
auditors, I have my agents. Webinars, private sector, being 
used widely. We are almost allowed to do it. For security 
reasons it has been a struggle to get there for the Department 
as a whole.
    Senator Johnson. That is really what OMB should be driving. 
Ms. Cobert--I think she is in a perfect position. I think she 
has the exact skill set to be that accumulator of best 
practices, to disseminate that out to the agencies.
    So, again, I want to also second what Dr. Coburn said as 
well, that it is the IG community, places like the GAO, that 
give us that kind of accountability. So I appreciate your 
service and really look forward to working with you in the 
future to make sure that we put these effective controls in 
place.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you.
    I want to followup, just before we close out here, return 
to what one of the points I think Senator Johnson was making at 
the beginning of this round of questioning. I think what he is 
getting at is what are some of the challenges that your offices 
face in conducting audits and what do you need to enable you to 
improve the auditing of travel and conference spending. And I 
would just followup and add to that, do some of these 
accounting and reporting challenges affect other areas of your 
auditing and investigative work? I am going to ask you to 
answer that on the record, and we will provide that question on 
the record, but I want us to drill down on that point.
    In closing, a couple of themes that I would like to close 
with. First of all, thanks again so much for your work and for 
being here with us today to be part of this. I think it is a 
very valuable conversation. A lot of times we beat ourselves up 
because we do not do a very good job, and with respect to our 
responsibilities and stewardship in government, I am actually 
encouraged that some very good work is being done, and we have 
seen the amount of money being spent in travel and conferences 
reduced by $3 billion from 2010 to 2013. And my hope is that we 
have still gotten our money's worth, the taxpayers' money's 
worth for the dollars that are being expended. And my belief is 
that to the extent that we use that sunshine, use that 
transparency, we will continue to wring some savings out of 
this.
    I would also say that I am, as Senator Johnson and others, 
interested in spending money in a smarter way, in some cases 
spending no money in a particular area or less money. But there 
are some areas where we find that we actually spend money and 
we get a multiple return of $2, $3, $5, $10 for the money that 
we outlay. So we have to be smart in keeping that in mind.
    I like to--and Senator Johnson has heard me say this, talk 
about the two C's, communicate and compromise. These are two 
keys for a long marriage. They are also the keys for a vibrant 
democracy, communicate and compromise.
    The third I sometimes mention is collaboration, and we have 
a good collaboration going on in this regard with respect to 
the spending in this area of our government. And you are a big 
part of it. I think we are. So is OMB, GAO, GSA, and some folks 
from the nonprofit groups. So we have to keep building on those 
three C's, I believe, going forward.
    And the last thing I want to say, I think a fair amount 
about employee morale within the Federal workforce. We received 
just weeks ago an annual evaluation that is done by a 
nonprofit. They evaluate in 300 Federal agencies the morale of 
the workforce. It is important. Why is that important? Well, it 
is important for us to attract good people, and it is important 
to retain them and for them to feel satisfaction in their work 
and maybe, hopefully from that, want to work even harder and be 
more effective.
    I like to reflect on a study done about--reported about a 
year ago, it was an international study, and people around the 
world were asked the same question: What do you like about your 
work? That was the question. What do you like about your work? 
And people had different answers. Some people liked getting 
paid; they liked their paychecks. Some people liked getting a 
vacation. Some people liked having health care. Some people 
liked having a pension.
    But the answer that was shared by more answers than any 
other was they appreciated most of all knowing that the work 
that they were doing was important and the feeling, the belief 
that they were making progress--that the work they were doing 
was important, and they felt that they were making progress. 
And I am sure there are some people who enjoy their job because 
of the trips they get to take, the conferences that they get to 
go to, the travel that they get to take.
    But at the end of the day, I think Federal employees are 
like a lot of other people around the world. They know that the 
work that we are doing is important, and they want to go home 
at night and feel that we are making progress, that they are 
making progress and we are making progress, in part because 
they have better leadership, including Senate-confirmed 
leadership, and that they know that we are interested in trying 
to make sure they have the resources that they need. But, you 
cannot always get what you want, but if you try sometime, we 
can get what we need. And part of what we need here is good 
oversight and good direction and continued adherence to the 
three C's, especially that last one--collaboration.
    All right. With that, I think it is a wrap. I think we have 
about 2 weeks for those who are Members of the Committee who 
would like to submit questions, and we just ask that, as you 
receive those, please respond to them promptly. We look forward 
to continuing to work with you on these venues and a lot of 
others.
    With that having been said, we thank you again. It is good 
to see you all.
    Mr. Horowitz. Thank you.
    Mr. Miller. Thank you.
    Mr. George. Thank you.
    Chairman Carper. Keep up the good work, and please convey 
our thanks to the folks who work with you. All right? Thank 
you.
    With that, we are adjourned.

    [Whereupon, at 12:50 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
